App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DIMITRI SHIVKOV, individually
and as a trustee of the Phoenix
2010 Revocable Trust; VASSIL
ZHIVKOV; KRISTINA TSONEV;
SPECTRA SERVICES, INC.; DVS
HOLDINGS LLC; ROBERT C. MILLER;
BRENDA MAE MILLER; BRUCE G.
ROBINSON; SARA VAN ALSTYNE
ROBINSON; SYMPHONY HOMES
LLC; SYMPHONY DEVELOPMENT
CORPORATION; KEITH BUTLER;
REBECCA M. BUTLER; ERIC K.
WILKE; JULIE T. WILKE; JOHN
LINDER; NINA LINDER; AFFILION
OF COBRE VALLEY LLC; AFFILION
OF HUNTSVILLE PLLC; AFFILION
OF TEXAS PLLC; TAYLORWILKE
HOLDINGS LLC; TRADITIONS
EMERGENCY MEDICINE PA;
TREADSTONE EQUITY GROUP LLC;
UTA INVESTMENTS LLC;
BOOMERANG WB LLC; AZ
STORAGE 1 LLC; AZ STORAGE 2
LLC; BOOMERANG SONORAN LLC;
RV STORAGE LLC; STONE HAVEN
LODGE LLC; UTA HOLDINGS LLC;
WILKE MEDICAL DIRECTION
PLLC; 5T CAPITAL FUND II LLC;
5T CAPITAL HOLDINGS LLC; 5T
CAPITAL LLC; INGENUITY AUTO

No. 19-16746
D.C. No.
2:18-cv-04514SMM
OPINION

App. 2
LEASING LLC; INGENUITY AVIATION
LLC; INGENUITY EQUITY GROUP
II LLC; INGENUITY EQUITY GROUP
III LLC; INGENUITY EQUITY
GROUP LLC; INGENUITY LEASING
COMPANY II LLC; INGENUITY
LEASING COMPANY LLC; INGENUITY
MATRIX, INC.; INGENUITY
PROFESSIONAL SERVICES PLLC;
BOURNE TEMPE LAND LLC, on
behalf of themselves and all
others similarly situated; PAUL
M. MCHALE; CYNTHIA MCHALE;
KEITH E. PEREIRA, Individually
and as a trustee of The Blaser
Family Revocable Trust Dated
March 10, 2006; KIMBERLY
BLASER, Individually and as a
trustee of The Blaser Family
Revocable Trust Dated March
10, 2006; BRIAN R. TIFFANY;
RYAN P. FRANK; KATHERINE S.
FRANK; CATION LLC; FLORIDA
CITRUS HOLDINGS LLC; MCHALE
CAPITAL MANAGEMENT LLC; PS
BAILEY LLC; BLASER MANAGEMENT
LLC; BLUE HORIZON HOLDINGS
LLC; BUTLER MEDICAL GROUP,
INC.; DEVOTION HOMES LLC;
GLASS HOUSE LLC; MAUI LUXURY
RENTALS LLC; SILVER MEADOW
INVESTING LLC; T&G INVESTMENTS
LLC; TREADSTONE CORE3 LLC;
TW MANAGEMENT LLC; KAMAOLE
LUXURY RENTALS LLC; KANNAPALI

App. 3
BEACH HOLDINGS LLC; OUR
RETIREMENT LLC; RESILIANT LLC;
NADIM B. BIKHAZI; KAREN A.
KOSTLUK-BIKHAZI; BRADLEY S.
BULLARD; CATHLEEN M. BULLARD;
BLAKE G. WELLING; STEPHANIE
G. WELLING; BLAKE WELLING
MD PC; BRIAN TIFFANY MD PC;
UTAH SPINE CARE LLC;
WESTERN STATES MEDICAL LLC;
OGDEN CLINIC PROFESSIONAL
CORPORATION; BORSIGHT, INC.,
Plaintiffs-Appellants,
v.
ARTEX RISK SOLUTIONS, INC.;
TSA HOLDINGS LLC, FKA
Tribeca Strategic Advisors LLC;
TBS LLC, DBA PRS Insurance;
KARL HUISH; JEREMY HUISH; JIM
TEHERO; ARTHUR J. GALLAGHER
& COMPANY; DEBBIE INMAN
EPSILON ACTUARIAL SOLUTIONS
LLC; JULIE A. EKDOM; AMERISK
CONSULTING LLC; PROVINCIAL
INSURANCE PCC; TRIBECA
STRATEGIC ACCOUNTANTS LLC;
TRIBECA STRATEGIC
ACCOUNTANTS PLC,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Arizona
Stephen M. McNamee, District Judge, Presiding

App. 4
Argued and Submitted July 7, 2020
Seattle, Washington
Filed September 9, 2020
Before: MICHAEL DALY HAWKINS,
D. MICHAEL FISHER,* and MILAN D. SMITH, JR.,
Circuit Judges.
Opinion by Judge Milan D. Smith, Jr.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

SUMMARY**
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Arbitration
The panel afﬁrmed the district court’s order compelling individual arbitration and dismissing a putative class action alleging violations of the Racketeer
Inﬂuenced and Corrupt Organizations Act and Arizona
law.
Plaintiffs alleged that pursuant to agreements
between themselves and two defendants, defendants
formed captive insurance companies that plaintiffs
owned, and to which they paid insurance premiums.
Plaintiffs claimed the payments as tax-deductible business expenses without recognizing them as taxable
* The Honorable D. Michael Fisher, United States Circuit
Judge for the U.S. Court of Appeals for the Third Circuit, sitting
by designation.
** This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

App. 5
income. The IRS audited plaintiffs, issued delinquency
notices, and sought to impose penalties. After settling
with the IRS, plaintiffs ﬁled suit, alleging that the captives were illegal and abusive tax shelters, about which
defendants failed to inform or advise them.
The panel afﬁrmed the district court’s order compelling arbitration pursuant to an arbitration clause in
the parties’ agreements. First, the panel held that the
agreements were not unenforceable on the grounds
plaintiffs raised. Although plaintiffs asserted that defendants breached a ﬁduciary duty to point out and
fully explain an arbitration clause, they identiﬁed no
state law authority recognizing such a duty. Addressing an issue of first impression concerning the survival of arbitration obligations following contract
termination, the panel held that the agreements did
not expressly negate the presumption in favor of posttermination arbitration or clearly imply that the parties did not intend for their arbitration obligations to
survive termination.
Second, the panel held that under Arizona contract law, the arbitration clause encompassed all plaintiffs’ claims.
Third, joining other circuits, the panel held that
the availability of class arbitration is a gateway issue
that a court must presumptively decide. The panel concluded that the parties’ agreements did not clearly and
unmistakably delegate that issue to the arbitrator. Because the agreements were silent on class arbitration,
they did not permit class arbitration.

App. 6
Finally, the panel concluded that pursuant to Arizona law on alternative estoppel, all non-signatory defendants could compel arbitration pursuant to the
agreements.
COUNSEL
W. Ralph Canada Jr. (argued), David R. Deary, Jim L.
Flegle, Wilson E. Wray, John McKenzie, Donna Lee,
and Tyler M. Simpson, Loewinsohn Flegle Deary
Simon LLP, Dallas, Texas; Garrett W. Woktyns and
James A. Bloom, Schneider Wallace Cottrell Konecky
Wotkyns, LLP, Scottsdale, Arizona; for PlaintiffsAppellants.
Stephen V. D’Amore (argued), Scott P. Glauberman,
Michael A. Skokna, and Reid F. Smith, Winston &
Strawn LLP, Chicago, Illinois; Barbara J. Dawson, Joseph G. Adams, and Taryn J. Gallup, Snell & Wilmer
LLP, Phoenix, Arizona; for Defendants-Appellees Artex
Risk Solutions Inc., Arthur J. Gallagher & Company,
and Debbie Inman.
Karl M. Tilleman (argued) and Erin E. Bradham, Dentons, Phoenix, Arizona; for Defendants-Appellees TSA
Holdings LLC, TBS LLC, Karl Huish, Jeremy Huish,
Jim Tehero, Provincial Insurance PCC, and Tribeca
Strategic Accountants LLC.
J. Steven Sparks and Vincent Miner, Sanders & Parks,
Phoenix, Arizona, for Defendants-Appellees Epsilon
Actuarial Solutions LLC and Julie A. Ekdom.

App. 7
J. Michael Low and Paul Gerding, Jr., Kutak Rock,
Scottsdale, Arizona, for Defendant-Appellee AmeRisk
Consulting LLC.
Michael J. Plati and Michael S. Rubin, Dickinson
Wright PLLC, Phoenix, Arizona, for Defendant-Appellee
Tribeca Strategic Accountants PLC.
OPINION
M. SMITH, Circuit Judge:
Plaintiffs1, some eighty-one individuals and related
business entities, variously entered into agreements
(the Agreements) with Defendants Artex Risk Solutions, Inc. (Artex) and TSA Holdings, LLC, formerly
Tribeca Strategic Advisors, LLC (Tribeca). Pursuant
to these Agreements, Artex and Tribeca formed and
managed captive insurance companies that Plaintiffs
owned, and to which Plaintiffs paid insurance premiums. Plaintiffs claimed the payments as tax-deductible
business expenses without recognizing them as taxable income. Although this arrangement offered the
prospect of tax beneﬁts, that prospect proved ﬂeeting.
The IRS audited Plaintiffs, issued delinquency notices,
and sought to impose penalties.

1

Because the Plaintiffs are so numerous, and are each
named in the caption, we do not recount the names of all of them
in the body of this opinion.

App. 8
After settling with the IRS, Plaintiffs brought this
putative class action suit against Defendants.2 Plaintiffs allege that the captives were illegal and abusive
tax shelters, about which Defendants failed to inform
or advise Plaintiffs. Plaintiffs’ pursuit of this suit, however, faced a roadblock: the Agreements contain an
arbitration clause (the Arbitration Clause or Clause).
The district court granted Defendants’ motion to compel arbitration and dismissed the operative complaint
without prejudice. Plaintiffs appeal.
We resolve several issues here. First, we hold that
the Agreements are not unenforceable on the grounds
Plaintiffs raise. Although Plaintiffs assert that Artex
and Tribeca breached a ﬁduciary duty to point out and
fully explain an arbitration clause, they identify no
state law authority recognizing such a duty. Addressing an issue of ﬁrst impression in our circuit concerning the survival of arbitration obligations following
contract termination, we hold that the Agreements
do not expressly negate the presumption in favor of
post-termination arbitration or clearly imply that the
parties did not intend for their arbitration obligations to survive termination. Second, we hold that the
2

In addition to Artex and Tribeca, Plaintiffs sued ofﬁcers of
Artex, Tribeca, and the parent company of Artex, namely, Defendants Karl Huish, Jeremy Huish, Jim Tehero, and Arthur J. Gallagher & Co. Plaintiffs also sued TBS LLC d/b/a PRS Insurance;
Debbie Inman (an Artex employee); Epsilon Actuarial Solutions,
LLC, Julie A. Ekdom (CEO of Epsilon); AmeRisk Consulting,
LLC; Provincial Insurance, PCC; Tribeca Strategic Accountants,
LLC; and Tribeca Strategic Accountants, PLC. We refer to all as
the “Defendants.”

App. 9
Arbitration Clause encompasses all Plaintiffs’ claims.
Third, we join seven of our sister circuits in holding
that the availability of class arbitration is a gateway
issue that a court must presumptively decide. The
Agreements here do not clearly and unmistakably
delegate that issue to the arbitrator. Because the
Agreements are silent on class arbitration, they do
not permit class arbitration. Finally, we conclude that
all non-signatory Defendants may compel arbitration
pursuant to the Agreements. Thus, we afﬁrm.
BACKGROUND
I.

The Agreements and the Arbitration Clause

Between 2009 and 2012, the various groups of
Plaintiffs retained Artex and Tribeca, both insurance
management companies, to provide services concerning the formation and management of captive
insurance companies for Plaintiffs.3 Pursuant to the
Agreements, Artex and Tribeca, with support from the
other Defendants, conducted feasibility studies concerning the creation of the respective captives, created
and managed the captives, calculated the captives’ estimated federal tax payments, caused annual federal
tax returns for the captives to be prepared and ﬁled,
maintained the captives’ accounting records, and reinsured the captives.

3

Artex acquired Tribeca in 2010.

App. 10
As is relevant here, the Agreements contain an Arbitration Clause:
You and we agree that in the event of any dispute that cannot be resolved between the parties, that we will agree to seek to resolve such
disputes through mediation in Mesa, Arizona,
and if that fails, that all disputes will be subject to binding arbitration in Mesa, Arizona,
with arbitrators to be agreed upon by the
parties, and if no agreement is reached, then
arbitrated by the American Arbitration Association (AAA). Each party shall bear its own
costs in such mediation and arbitration. To reduce time and expenses, we each waive our
right to litigate against one another regarding
the services provided and obligations pursuant to this Agreement, and instead you and
we have chosen binding arbitration. All claims
or disputes will be governed by Arizona law.
Several Agreements also contain a Termination and
Withdrawal section, which includes a clause concerning the survival of the terms of that section following
termination of the Agreement.4
II.

This Litigation

After settling with the IRS for tax liability issues
arising from deductions that they claimed for the
4

The Agreements of the following Plaintiffs contain this section: Shivkov, Miller, Linder, Bikhazi, Welling, Bullard, Frank,
and McHale, as well as their corresponding entities. The Agreements of Plaintiffs Butler, Wilke, Pereira, and Tiffany do not contain this section.

App. 11
premiums that they paid to the captives, Plaintiffs
ﬁled a putative class action complaint in the District
of Arizona. In the operative one hundred seventypage First Amended Complaint (FAC), Plaintiffs raised
claims against all Defendants for breach of ﬁduciary
duty, negligence, negligent misrepresentation, disgorgement, rescission, breach of contract and the duty of
good faith and fair dealing, fraud, civil conspiracy, aiding and abetting breach of ﬁduciary duty and fraud,
violations of the federal Racketeer Inﬂuenced and Corrupt Organizations (RICO) Act, 18 U.S.C. § 1961 et seq.,
and violations of the Arizona RICO statute, Ariz. Rev.
Stat. § 13-2301 et seq. Defendants moved to compel
arbitration, and separately moved to dismiss. The
district court granted the motion to compel, ordered
Plaintiffs to arbitrate their claims on an individual basis, and dismissed the FAC without prejudice. Plaintiffs timely appealed.
JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction pursuant to 28 U.S.C. § 1291
and 9 U.S.C. § 16(a)(3). Green Tree Fin. Corp.-Ala. v.
Randolph, 531 U.S. 79, 89 (2000); Johnmohammadi v.
Bloomingdale’s, Inc., 755 F.3d 1072, 1074 (9th Cir.
2014). “We review a district judge’s order to compel arbitration de novo.” Casa del Gaffe Vergnano S.P.A. v.
ItalFlavors, LLC, 816 F.3d 1208, 1211 (9th Cir. 2016).
We review factual ﬁndings for clear error, and the interpretation and meaning of contract provisions de
novo. Nguyen v. Barnes & Noble Inc., 763 F.3d 1171,
1175 (9th Cir. 2014).

App. 12
ANALYSIS
Subject to certain exceptions not at issue here, the
Federal Arbitration Act (FAA), 9 U.S.C. § 1 et seq., governs arbitration agreements in contracts involving interstate commerce. “The FAA reﬂects both a ‘liberal
federal policy favoring arbitration’ . . . and the ‘fundamental principle that arbitration is a matter of
contract,’. . . .” Kramer v. Toyota Motor Corp., 705 F.3d
1122, 1126 (9th Cir. 2013) (quoting AT&T Mobility
LLC v. Concepcion, 563 U.S. 333, 339 (2011)). “The
basic role for courts under the FAA is to determine
‘(1) whether a valid agreement to arbitrate exists and,
if it does, (2) whether the agreement encompasses the
dispute at issue.’ ” Kilgore v. KeyBank, Nat’l Ass’n, 718
F.3d 1052, 1058 (9th Cir. 2013) (en banc) (quoting Chiron Corp. v. Ortho Diagnostic Sys., Inc., 207 F.3d 1126,
1130 (9th Cir. 2000)). State law governs the validity,
revocability, and enforceability of a contract. Id. Federal substantive law governs the scope of an arbitration agreement. Kramer, 705 F.3d at 1126.
I.

The Arbitration Clause is Enforceable

We turn ﬁrst to the enforceability of the Clause.
Pursuant to the FAA, “[a] written provision in any . . .
contract evidencing a transaction involving commerce
to settle by arbitration a controversy thereafter arising
out of such contract . . . shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or
in equity for the revocation of any contract.” 9 U.S.C.
§ 2. The savings clause of this provision permits a

App. 13
party to challenge an arbitration agreement pursuant
to a generally applicable state law contract defense,
such as fraud, duress, or unconscionability. Doctor’s
Assocs., Inc. v. Casarotto, 517 U.S. 681, 686-87 (1996);
Kilgore, 718 F.3d at 1058. “As arbitration is favored,
those parties challenging the enforceability of an arbitration agreement bear the burden of proving that
the provision is unenforceable.” Mortensen v. Bresnan
Commc’ns, LLC, 722 F.3d 1151, 1157 (9th Cir. 2013).
Plaintiffs challenge the enforceability of the Arbitration Clause on two grounds. First, for all Agreements,
Plaintiffs argue that Artex and Tribeca breached a
state law ﬁduciary duty concerning arbitration clauses.
Second, for only some Agreements, Plaintiffs argue
that the Clause did not survive termination of the
Agreements. We address each challenge in turn.
A. The Breach of Fiduciary Duty Challenge
Plaintiffs aver that Artex and Tribeca had a ﬁduciary duty to point out and explain the Arbitration
Clause, which they failed to do. Thus, Plaintiffs claim,
Artex and Tribeca effectively suppressed its existence
in the less than ten-page Agreements that Plaintiffs
received and signed, and thereby committed the legal
equivalent of fraud.5 Fraud is a basis to revoke a
5

Plaintiffs made a similar argument in challenging the
Clause as procedurally unconscionable. The district court rejected
that argument, ﬁnding that that the record demonstrates that
“Plaintiffs are sophisticated people and businesses capable of negotiating this type of commercial relationship.” The court further
explained that although Plaintiffs argued that Artex and Tribeca
rushed them into signing the Agreements, only one Plaintiff

App. 14
contract under Arizona law. U.S. Insulation, Inc. v.
Hilro Constr. Co., Inc., 705 P.2d 490, 493-94 (Ariz. Ct.
App. 1985). However, to show fraud on the ground
raised here, Plaintiffs must show that Artex and
Tribeca owed the ﬁduciary duty that Plaintiffs claim
exists under Arizona law. We will assume arguendo
that a ﬁduciary relationship arose between Plaintiffs
and Artex at some point in Defendants’ provision of
captive insurance services.6 Even assuming so, Plaintiffs have not shown that, under Arizona law, it would
encompass a duty to point out and fully explain an arbitration clause.
Plaintiffs direct us to a federal district court decision interpreting Arizona law. See Katt v. Riepe, No.
CV-14-08042-PCT-DGC, 2014 WL 3720515 (D. Ariz.
July 25, 2014). However, “we must adhere to state
court decisions—not federal court decisions—as the
authoritative interpretation of state law.” Daniel v.
Ford Motor Co., 806 F.3d 1217, 1223 (9th Cir. 2015).
Neither did the underlying Arizona state court decision on which Katt relied hint at the existence of a duty
that would require a contracting party to point out
and fully explain an arbitration clause. See Leigh v.
Loyd, 244 P.2d 356 (Ariz. 1952); Lerner v. DMB Realty,
LLC, 322 P.3d 909 (Ariz. Ct. App. 2014). Although these
identiﬁed a time frame for signing an Agreement, which spanned
“a few weeks.” Plaintiffs do not challenge in this appeal the court’s
determination that the Clause is not unconscionable.
6
Because we assume this relationship, it is unnecessary to
address Plaintiffs’ request for additional discovery about whether
a ﬁduciary relationship existed.

App. 15
decisions articulated a ﬁduciary duty to disclose all
material facts, that duty arose in the context of the ﬁduciary relationship between a real estate broker and
the broker’s principal. See Leigh, 244 P.2d at 358 (“It is
well settled that a conﬁdential relation exists between
a real estate agent and his principal,” which “impose[s]
a duty on [the agent] to disclose the true facts.”); Lerner, 322 P.3d at 919 (“A [real estate] broker owes a ﬁduciary duty to disclose material facts to its client.”).
No such relationship existed here.
The case before us is like one that the Arizona
Court of Appeals has already considered. In Dueñas v.
Life Care Centers of America, Inc., 336 P.3d 763 (Ariz.
Ct. App. 2014), the plaintiff challenged the enforceability of an arbitration agreement by arguing that
an asserted ﬁduciary’s failure to obtain the plaintiff ’s
signature for the agreement rendered the agreement
unenforceable. Id. at 771. The court rejected that argument because the plaintiff had identiﬁed no authority
establishing that the duties involved in a ﬁduciary relationship extend to “the purely commercial aspects of
their relationship.” Id. Like the plaintiff there, Plaintiffs fail to identify any Arizona authority that would
subject Artex and Tribeca to a ﬁduciary duty in connection with an arbitration clause. Thus, Plaintiffs
have failed to show that the Clause is unenforceable
on this ground.

App. 16
B. The Arbitration Clause Survival Challenge
Plaintiffs next argue that the Arbitration Clause
in only some of their Agreements is unenforceable
because it did not survive termination of the Agreements.7 Whether a party has agreed to arbitrate disputes following contract termination depends upon
whether the arbitration obligations created under that
contract remain enforceable. See Biller v. S-H OpCo
Greenwich Bay Manor, LLC, 961 F.3d 502, 513-14 & n.9
(1st Cir. 2020). We ﬁrst address the framework applicable to post-termination arbitration and then apply it
here.
1. The Applicable Framework
Although the Supreme Court has not addressed
the issue of post-termination arbitration of disputes in
the FAA context, the Court has addressed this issue in
the collective bargaining context. In Litton Financial
Printing Division v. NLRB, the Court recognized a
“presumption in favor of postexpiration arbitration of
matters unless ‘negated expressly or by clear implication’ [for] matters and disputes arising out of the relation governed by contract.” 501 U.S. 190, 204 (1991)
(quoting Nolde Bros., Inc. v. Local No. 358, Bakery &
Confectionary Workers Union, AFL-CIO, 430 U.S. 243,
7

Plaintiffs raise this argument only for Plaintiffs Shivkov,
Miller, Linder, Bikhazi, Welling, Bullard, Frank, and McHale, as
well as their corresponding entities. Thus, this argument does not
apply to Plaintiffs Butler, Wilke, Pereira, and Tiffany.

App. 17
255 (1977)). The Court explained that “[w]e presume
as a matter of contract interpretation that the parties
did not intend a pivotal dispute resolution provision to
terminate for all purposes upon the expiration of the
agreement.” Id. at 208. For the presumption to apply,
the parties’ dispute must have “its real source in the
contract.” Id. at 205. This occurs “only where [the dispute] involves facts and occurrences that arose before
expiration, where an action taken after expiration infringes a right that accrued or vested under the agreement, or where, under normal principles of contract
interpretation, the disputed contractual right survives
expiration of the remainder of the agreement.” Id. at
206 (emphasis added).
Although we have not addressed Litton’s application to the FAA context, ﬁve sister circuits have. See
Biller, 961 F.3d at 513; Breda v. Cellco P ‘ship, 934 F.3d
1, 7 (1st Cir. 2019); Huffman v. Hilltop Cos., LLC, 747
F.3d 391, 395-96 (6th Cir. 2014); Wolff v. Westwood
Mgmt., LLC, 558 F.3d 517, 520-21 (D.C. Cir. 2009);
Koch v. Compucredit Corp., 543 F.3d 460, 465-66 (8th
Cir. 2008); CPR (USA) Inc. v. Spray, 187 F.3d 245, 25456 (2d Cir. 1999), abrogated on other grounds as explained in Accenture LLP v. Spreng, 647 F.3d 72, 76 (2d
Cir. 2011). We are persuaded that the presumption also
applies here. As the Sixth Circuit has explained, “the
need for an arbitration provision to have post-expiration effect is intuitive, because if ‘the duty to arbitrate
automatically terminated upon expiration of the contract, a party could avoid his contractual duty to arbitrate by simply waiting until the day after the contract

App. 18
expired to bring an action regarding a dispute that
arose while the contract was in effect.’ ” Huffman, 747
F.3d at 395 (citation omitted). Thus, we also apply the
Litton framework here.
2. The Application of the Litton Presumption Here
We do not doubt that the dispute here has “its real
source in the contract,” Litton, 501 U.S. at 205, because
Plaintiffs raised no argument on this issue in their
opening brief and thus waived the issue. Smith v.
Marsh, 194 F.3d 1045, 1052 (9th Cir. 1999) (“[O]n appeal, arguments not raised by a party in its opening
brief are deemed waived.”). Plaintiffs argue, however,
that the parties expressly negated the presumption, or
clearly implied that their arbitration obligations under
the Agreements at issue would not survive termination. Plaintiffs point to the following text in the “Termination and Withdrawal” section:
The terms of this section shall survive the termination of this Agreement and/or the dissolution or other effective termination of the
business of [Artex or Tribeca] or the insurance
company.
Invoking the doctrine of expressio unius est exclusio
alterius, Plaintiffs contend that the survival clause
contains an exclusive list of the provisions that survive
termination which excludes the Arbitration Clause
and thus expressly negates the presumption or clearly
implies that the parties did not intend for their

App. 19
arbitration obligations to survive termination. See Herman Chanen Constr. Co. v. Guy Apple Masonry Contractors Inc., 453 P.2d 541, 543 (Ariz. Ct. App. 1969)
(“[T]he expression in a contract of one or more things
of a class, implies the exclusion of all things not expressed. . . .”).
The Sixth Circuit has already addressed the impact of a survival clause on post-termination arbitration obligations. See Huffman, 747 F.3d at 394-98. In
Huffman, the Sixth Circuit determined that the freestanding survival clause there—which included half
the agreement’s provisions but not the arbitration
clause—was insufﬁcient to overcome the presumption
in favor of post-termination arbitration. Id. Acknowledging that the expressio unius doctrine “present[ed] a
trick[y] question,” the Sixth Circuit determined that
“considering the contract as a whole—the survival
clause and its relationship to the other clauses in the
agreement—is the correct way to determine whether
the parties unambiguously intended for the arbitration clause to expire with the contract.” Id. at 397 (emphasis added). The Sixth Circuit adopted this mode of
analysis due to “the strong federal policy in favor of arbitration,” id. at 394, pursuant to which a court “resolv[es] any doubts as to the parties’ intentions in favor
of arbitration,” id. at 395 (quoting Nestle Waters N.
Am., Inc. v. Bollman, 505 F.3d 498, 503 (6th Cir. 2007)).
The Sixth Circuit also noted that the presumption of
arbitrability should not be denied for “broadly-worded
arbitration clauses” unless it may be said with positive
assurance that the arbitration clause is not susceptible

App. 20
of an interpretation that covers the asserted dispute.
Id.
We are persuaded that looking to the Agreements
as a whole is the proper mode of analysis here. The
FAA “establishes ‘a liberal federal policy favoring arbitration agreements.” Epic Sys. Corp. v. Lewis, 138 S. Ct.
1612, 1621 (2018) (quoting Moses H. Cone Mem’l Hosp.
v. Mercury Constr. Corp., 460 U. S. 1, 24 (1983)); see also
Kramer, 705 F.3d at 1126 (recognizing strong federal
policy in favor of arbitration). Although Plaintiffs contend that the Arbitration Clause is not as broadly
worded as the clause in Huffman, we reject that argument in Part II and thus the scope of the Clause also
lends support to looking to the contract as a whole. Finally, Arizona law also looks to the contract as a whole
to ascertain the parties’ intent. Elm Ret. Ctr., LP v.
Callaway, 246 P.3d 938, 941-42 (Ariz. Ct. App. 2010)
(“To determine the parties’ intent, we ‘look to the plain
meaning of the words as viewed in the context of the
contract as a whole.’ ” (quoting United Cal. Bank v.
Prudential Ins. Co., 681 P.2d 390, 411 (Ariz. Ct. App.
1983))).
Looking to the Agreements as a whole, the survival clause is insufﬁcient to expressly negate the presumption in favor of post-termination arbitration or
clearly imply that the parties intended for their arbitration obligations to terminate with the Agreements.
The Agreements lack an exhaustive survival clause.
Instead, the clause here appears in and concerns only
the insular terms established by the “Termination
and Withdrawal” section. We doubt that the parties

App. 21
intended for an insular survival clause tucked into a
section establishing unique obligations and duties
upon the termination of the Agreement to comprehensively identify the Agreement terms that would survive termination.8 That doubt grows here because, as
in Huffman, the Agreements contain severability and
integration clauses outside the section with the survival clause. 747 F.3d at 397. “[I]t is illogical to conclude that upon expiration of the contract, the parties
no longer intended” for these provisions to apply. See
id.
Other provisions of the Agreements also suggest
ambiguity about the survival clause on which Plaintiffs rely. The Agreements contain sections that disclaim liability for any underwriting losses and impose
general limitations on liability, whether direct or indirect, arising out of, in connection with, or related in any
way to an Agreement or services provided pursuant to
it. The latter provision expressly precludes certain
types of damages that may be recovered, including, in
relevant part, punitive damages, taxes and interest
due to any taxing authority or government agency,
penalties payable to any taxing authority or government agency, and attorneys’ fees. These are limitations
that the parties are unlikely to have intended to terminate with the Agreements, particularly given the broad
8

Although Plaintiffs argue that reading the contract as a
whole renders the survival clause mere surplusage, that argument circularly justiﬁes not looking to the entire contract by presupposing that the clause has the meaning Plaintiffs ascribe it.
The point of the analysis here is to ascertain whether the clause
plainly bears that meaning or not.

App. 22
scope of the limitations on liability and the fact that
the limitations plainly concern events that are likely
to occur post-termination.
Considering the Agreements as a whole, we cannot
ﬁnd that the parties expressly negated the presumption in favor of post-termination arbitration, or clearly
implied that their arbitration obligations would not
survive termination. We might have arrived at a different conclusion if the survival clause stated that only
the terms of that section and no other terms in the
Agreement would survive termination, if the Agreement included a comprehensive survival clause, or
even if the Arbitration Clause explicitly stated that
it does not survive termination. Of course, the Agreements contain no such language. Because “we cannot
say with certainty that the parties did not intend for
the arbitration clause to survive expiration of the contract,” the parties’ arbitration obligations remain intact. See id. at 398.
II.

The Arbitration Clause Encompasses Plaintiffs’ Claims

We turn next to whether the Arbitration Clause
encompasses all of Plaintiffs’ claims here. “[A] party
can be forced to arbitrate only those issues it speciﬁcally has agreed to submit to arbitration.” First Options of Chi., Inc. v. Kaplan, 514 U.S. 938, 945 (1995).
“When deciding whether the parties agreed to arbitrate a certain matter . . . courts generally . . . should
apply ordinary state-law principles that govern the

App. 23
formation of contracts.” Id. at 944. Under Arizona law,
a contract is ambiguous when it “can be reasonably
construed in more than one manner” Leo Eisenberg &
Co., Inc. v. Payson, 785 P.2d 49, 52 (Ariz. 1989). “[A]s
with any other contract, the parties’ intentions control,
but those intentions are generously construed as to issues of arbitrability.” Mitsubishi Motors Corp. v. Soler
Chrysler-Plymouth, Inc., 473 U.S. 614, 626 (1985). In
the face of any ambiguity, “under the federal presumption in favor of arbitration, an arbitrator would have
jurisdiction to arbitrate claims.” Comedy Club, Inc. v.
Improv W. Assocs., 553 F.3d 1277, 1285 (9th Cir. 2009).
The Clause provides in the ﬁrst instance (with emphasis added) that: “You and we agree that in the event
of any dispute that cannot be resolved between the parties, that we will agree to seek to resolve such disputes
through mediation . . . and if that fails, that all disputes will be subject to binding arbitration.” Defendants understandably rely on this sweeping language to
conclude that the Clause includes all Plaintiffs’ claims.
Plaintiffs, however, draw our attention to other
language in the Clause which they argue narrows its
scope. Plaintiffs focus on the Clause’s third sentence:
“[t]o reduce time and expenses, we each waive our right
to litigate against one another regarding the services
provided and obligations pursuant to this Agreement,
and instead you and we have chosen binding arbitration.” It is a “standard rule of contract interpretation”
that “speciﬁc terms control over general ones.” United
States ex rel. Welch v. My Left Foot Children’s Therapy,
LLC, 871 F.3d 791, 797 (9th Cir. 2017) (quoting S. Cal.

App. 24
Gas Co. v. City of Santa Ana, 336 F.3d 885, 891 (9th
Cir. 2003)); see also Elm Ret. Ctr., LP, 246 P.3d at 942
(“[B]ecause speciﬁc contract provisions express the
parties’ intent more precisely than general provisions,
speciﬁc provisions qualify the meaning of general provisions.”).9 Treating the Clause’s third sentence as a
more speciﬁc term concerning scope, we discern that
the parties intended to arbitrate “any” and “all disputes” “regarding the services provided and obligations pursuant to this Agreement.” So understood, the
Clause still remains broad. See, e.g., Simula, Inc. v. Autoliv, Inc., 175 F.3d 716, 720 (9th Cir. 1999) (concluding
that a clause encompassing “[a]ll disputes arising in
connection with this Agreement” should be construed
and applied liberally); Republic of Nicaragua v. Standard Fruit Co., 937 F.2d 469, 479 (9th Cir. 1991) (similar). The district court methodically explained why all
of the claims here are subject to arbitration on this
reading.
Plaintiffs nonetheless tell us that the district court
erred in sending their various non-breach of contract
claims to arbitration by pointing to a disclaimer in the
Agreements, pursuant to which Artex and Tribeca explained that they “do[ ] not provide any legal, tax, or
9

We will assume that Plaintiffs meant to rely on this standard and directly applicable contract rule because Plaintiffs’ reliance on Mesquite Lake Assocs. v. Lurgi Corp., 754 F. Supp. 161
(N.D. Cal. 1991), is unpersuasive. Unlike in Mesquite, the Clause
does not limit its scope through a provision that “any controversy
or dispute between the Parties concerning this Agreement and
speciﬁcally subject to resolution pursuant to this Article shall be
subject to arbitration. . . .” Id. at 162 (emphasis added).

App. 25
accounting advice.” Plaintiffs aver that “tax or legal advice” was not among the services and obligations under
the Agreements, and thus their claims concerning such
advice are excluded from arbitration. This argument
hinges entirely on the meaning of “tax or legal advice.”
Curiously, Plaintiffs do not offer any interpretation
of those terms. Repeating a bare assertion that this
phrase excludes their non-contract claims without supporting argument does not make it so.10 See Navajo
Nation v. U.S. Forest Serv., 535 F.3d 1058, 1079 n.26
(9th Cir. 2008) (en banc) (“It is well-established that a
bare assertion in an appellate brief, with no supporting
argument, is insufﬁcient to preserve a claim on appeal.”). Because the Agreements provide that Artex
and Tribeca would prepare federal tax returns and
calculate estimated tax payments for the captives,
Plaintiffs’ argument, at best, points to ambiguity that
we must resolve in favor of arbitration. See Comedy
Club, 553 F.3d at 1286. Thus, we still conclude that the
Clause encompasses all Plaintiffs’ claims.
III. The Availability of Class Arbitration
Plaintiffs brought this suit as a putative class
action against Defendants involving “hundreds if not
10

Although Plaintiffs rely on Khan v. BDO Seidman, LLP,
935 N.E.2d 1174 (Ill. App. Ct. 2010), that case says nothing about
the issue here, namely the meaning of the phrase “tax or legal
advice” for the Agreements at issue. Thus, apart from the fact that
we are not bound by that decision, Plaintiffs’ list of factual comparisons with that case does nothing to overcome their failure to
offer any meaning of these terms in the Agreements here.

App. 26
thousands” of class members. The district court, however,
ordered individual arbitration. We must determine
next (1) whether the availability of class arbitration is
a “gateway question” that a court must presumptively
decide and, if so, (2) whether the parties nevertheless
clearly and unmistakably delegated the issue to the arbitrator, and (3) if not, whether the Agreements permit
class arbitration. We address each issue in turn.
A. The Availability of Class Arbitration is
a Gateway Issue for a Court to Presumptively Decide
The Supreme Court has distinguished between
two categories of issues, each of which has a different
presumption as to whether a court or an arbitrator
should decide them. See Howsam v. Dean Witter Reynolds, Inc., 537 U.S. 79, 83 (2002); Martin v. Yasuda,
829 F.3d 1118, 1122-23 (9th Cir. 2016). In the ﬁrst category of issues are “potentially dispositive gateway
question[s] . . . of arbitrability” that “contracting parties would likely have expected a court to . . . decide[ ].”
Howsam, 537 U.S. at 83 (internal quotation marks
omitted). “This category includes issues . . . such as
‘whether the parties are bound by a given arbitration
clause’ or whether ‘an arbitration clause in a concededly binding contract applies to a particular type of
controversy.’ ” Martin, 829 F.3d at 1123 (quoting Howsam, 537 U.S. at 84). “These disputes are ‘for judicial
determination unless the parties clearly and unmistakably provide otherwise.’ ” Id. (quoting Howsam,
537 U.S. at 83). The second category encompasses

App. 27
“procedural” issues, which are “presumptively not for
the judge, but for an arbitrator, to decide.” Id. (quoting
Howsam, 537 U.S. at 84). Examples of issues in this
category are whether a party has satisﬁed the arbitral
forum’s statute of limitations for ﬁling a case, whether
a party has satisﬁed certain requirements of a procedural grievance, and “allegation[s] of waiver, delay, or
a like defense to arbitrability.” Howsam, 537 U.S. at
8485 (quoting Moses H. Cone, 460 U.S. at 25).
The Supreme Court has not had occasion to decide
whether the availability of class arbitration is a gateway issue for a court to decide pursuant to this framework. See Lamps Plus, Inc. v. Varela, 139 S. Ct. 1407,
1417 n.4 (2019) (not deciding the question because the
parties agreed that the issue was one for the court to
decide); Oxford Health Plans LLC v. Sutter, 569 U.S.
564, 569 n.2 (2013) (not deciding the question because
the parties agreed that the issue was one for the arbitrator to decide); Stolt-Nielsen S.A. v. AnimalFeeds
Int’l Corp., 559 U.S. 662, 680 (2010) (not deciding the
question because the parties entered into a supplemental agreement that expressly assigned the issue of
the availability of class arbitration to the arbitration
panel).
Seven of our sister circuit courts, however, have
concluded that the availability of class arbitration is a
gateway question for a court to presumptively decide.11
11

The Second and Tenth Circuits have assumed without deciding that the availability of class arbitration is a gateway
issue that is presumptively for a court to decide. See Dish
Network, L.L.C. v Ray, 900 F.3d 1240, 1245 (10th Cir. 2018)

App. 28
See 20/20 Commc’ns, Inc. v. Crawford, 930 F.3d 715,
718-19 (5th Cir. 2019); Herrington v. Waterstone Mortg.
Corp., 907 F.3d 502, 506-07 (7th Cir. 2018); JPay, Inc. v.
Kobel, 904 F.3d 923, 935-36 (11th Cir. 2018); Catamaran Corp. v. Towncrest Pharmacy, 864 F.3d 966, 972
(8th Cir. 2017); Del Webb Cmtys., Inc. v. Carlson, 817
F.3d 867, 873 (4th Cir. 2016); Opalinski v. Robert Half
Int’l Inc., 761 F.3d 326, 334-35 (3d Cir. 2014); Reed Elsevier, Inc. v. ex rel. LexisNexis Div. v. Crockett, 734 F.3d
594, 598-99 (6th Cir. 2013). We have also concluded
that the availability of class arbitration is a gateway
issue in an unpublished and nonprecedential memorandum disposition. See Eshagh v. Terminix Int’l Co.,
588 F. App’x 703, 704 (9th Cir. 2014).
Faced with whether class arbitration is a gateway
question here, we see no reason to create an unnecessary circuit split, or to depart from what we have already suggested. We ﬁnd persuasive the three reasons
that the Seventh Circuit has succinctly identiﬁed for
why class arbitration is a gateway issue. See Herrington, 907 F.3d at 507-08. The ﬁrst and second reasons
assimilate the issue of class arbitration into what we
have already recognized are gateway issues presumptively for a court to decide: “(1) whether there is an
agreement to arbitrate between the parties; and (2)
whether the agreement covers the dispute.” Brennan v.
(acknowledging the consensus among “many circuits” but assuming the issue and concluding that the parties clearly and
unmistakably delegated the issue to an arbitrator); Wells Fargo
Advisors, L.L.C. v. Sappington, 884 F.3d 392, 395 (2d Cir. 2018)
(same).

App. 29
Opus Bank, 796 F.3d 1125, 1130 (9th Cir. 2015) (citing
Howsam, 537 U.S. at 84). The third reason concerns the
Supreme Court’s treatment of class arbitration. We
brieﬂy consider each of these reasons.
The Seventh Circuit has explained ﬁrst that “[t]he
availability of class . . . arbitration involves a foundational question of arbitrability: whether the potential
parties to the arbitration agreed to arbitrate.” Herrington, 907 F.3d at 507. This is the familiar gateway question of whether there is an agreement to arbitrate
between the parties. See Brennan, 796 F.3d at 1130.
Plaintiffs ﬁled a putative class complaint, seeking to
represent “hundreds if not thousands of possible class
members. The availability of class arbitration raises
the question whether any of those possible class members have actually agreed to arbitration in the ﬁrst
place as well as the question whether the Agreements
show that Artex and Tribeca agreed to arbitrate rather
than litigate with those members. Thus, answering
this question “resolves the foundational question of
‘with whom’ [Artex and Tribeca] chose to arbitrate.”
See Herrington, 907 F.3d at 508 (quoting Stolt-Nielsen,
559 U.S. at 683).
Relatedly, the Seventh Circuit has explained that
“whether a contract permits class . . . arbitration involves a second . . . question of arbitrability: whether
the agreement to arbitrate covers a particular controversy.” Id. This is the familiar gateway question of
scope. See Brennan, 796 F.3d at 1130. Notably, the
Clause here provides that “[y]ou and we agree that
in the event of any dispute that cannot be resolved

App. 30
between the parties,” “such disputes” will be resolved
by mediation and arbitration. The availability of class
arbitration raises the question whether Artex and
Tribeca agreed to arbitrate particular disputes not
only with the Plaintiffs, but also with possible class
members. Answering this question resolves the question of whether the parties agreed to arbitrate particular disputes.
Third, and “most important[ly],” the Seventh Circuit has explained that class arbitration belongs to the
gateway category because “the structural features of
class arbitration make it a ‘fundamental’ change from
the norm of bilateral arbitration.” Herrington, 907 F.3d
at 509 (quoting Stolt-Nielsen, 559 U.S. at 686). The Supreme Court has all but endorsed this reason for treating class arbitration as a gateway issue. According to
the Court, class arbitration: (1) “sacriﬁces the principal
advantage of arbitration—its informality—and makes
the process slower, more costly, and more likely to
generate procedural morass than final judgment,”
Concepcion, 563 U.S. at 348, (2) “requires procedural
formality” because “[i]f procedures are too informal, absent class members would not be bound by the arbitration,” id. at 349, and (3) “greatly increases risks to
defendants,” id. at 350. In short, “class-action arbitration changes the nature of arbitration to such a degree
that it cannot be presumed the parties consented to it
by simply agreeing to submit their disputes to an arbitrator.” Stolt-Nielsen, 559 U.S. at 685. As seven circuits
have recognized, the Court’s discussion of class arbitration is a weighty thumb on the scale in favor of

App. 31
treating class arbitration as a gateway issue for a court
to presumptively decide. See 20/20 Commc’ns, 930 F.3d
at 719; Herrington, 907 F.3d at 509; JPay, 904 F.3d at
933-34; Catamaran Corp., 864 F.3d at 971-72; Del Webb
Cmtys., 817 F.3d at 875-76; Opalinski, 761 F.3d at 33334; Reed Elsevier, 734 F.3d at 598.
We are not persuaded by Plaintiffs’ arguments for
why we should not treat the availability of class arbitration as a gateway issue for a court. Plaintiffs rely on
a concurrence that is concededly not the law of any
circuit. See Dish Network, L.L.C., 900 F.3d at 1252-57
(Tymkovich, C.J., concurring). That concurrence criticizes the third reason we have identiﬁed as nothing
more than “Supreme Court dicta and good policy.” Id.
at 1255. But when the Court speaks, we should take
notice. See Zal v. Steppe, 968 F.2d 924, 935 (9th Cir.
1992), as amended (July 31, 1992) (Noonan, J, concurring in the result in part and dissenting in part)
(“[D]icta of the Supreme Court have a weight that is
greater than ordinary judicial dicta as prophecy of
what that Court might hold. We should not blandly
shrug them off because they were not a holding.”). As
we have explained, the Supreme Court has repeatedly
underscored why class arbitration is different and thus
should be treated differently. See Stolt-Nielsen, 559
U.S. at 685; Concepcion, 563 U.S. at 348-50. Naturally,
seven circuits have taken notice, and so do we.
Plaintiffs also argue that class arbitration is a procedural issue for an arbitrator to decide in light of the
Court’s passing references to class actions as “procedures” in Epic Systems, 138 S. Ct. at 1624-25, and the

App. 32
fact that the Federal Rules of Civil Procedure treat
class actions as procedural. We are not persuaded. As
the Seventh Circuit has observed, Epic Systems did not
decide whether class arbitration is a gateway question,
see Herrington, 907 F.3d at 506, and thus that decision
is not of any help. More fundamentally, that a class action is a “classically” procedural mechanism in federal
court under Federal Rule of Civil Procedure 23, Dish
Network, L.L.C., 900 F.3d at 1254 (Tymkovich, C.J.,
concurring), is of no moment here. In the arbitration
context, we are concerned with whether the parties to
the requested arbitration have agreed to that particular dispute resolution, and, if so, what the scope of that
agreement is. See Stolt-Nielsen, 559 U.S. at 687 (underscoring “the consensual basis of arbitration”). Therefore, the relevant metric is not the labeling of a
particular mechanism in federal court as “procedural",
but rather the categories of gateway issues in reviewing an arbitration agreement that the Court has instructed determine whether an issue is presumptively
for a court or an arbitrator to decide absent further
agreement by the parties. See Rent-A-Center, West, Inc.
v. Jackson, 561 U.S. 63, 69 (2010) (describing gateway
questions for a court as issues “such as whether the
parties have agreed to arbitrate or whether their
agreement covers a particular controversy” (emphasis
added)).
We have already explained how the question of the
availability of class arbitration interlocks with gateway issues that a court must presumptively decide.
Plaintiffs offer no persuasive reason for why we should

App. 33
nevertheless treat class arbitration as akin to the exemplary questions for an arbitrator to presumptively
decide, nor do we see one that would warrant a circuit
split. See Howsam, 537 U.S. at 85 (identifying as “procedural” questions presumptively for an arbitrator
as “whether prerequisites such as time limits, notice,
laches, estoppel, and other conditions precedent to an
obligation to arbitrate have been met”); see also Global
Linguist Solutions, LLC v. Abdelmeged, 913 F.3d 921,
923 (9th Cir. 2019) (reaching result partly to avoid an
unnecessary circuit split). Thus, we conclude that class
arbitration is a gateway issue for a court to presumptively decide.
B. The Parties Did Not Clearly and Unmistakably Delegate the Issue of Class Arbitration to the Arbitrator
Having resolved that class arbitration is a gateway issue, Plaintiffs tell us that the Clause evidences
a clear and unmistakable intent to delegate the issue
to the arbitrator as follows: (1) the Clause refers to
the AAA (i.e., the American Arbitration Association),
(2) which renders the AAA Rules applicable, (3) which
in turn encompass the AAA’s Supplementary Rules,
(4) which include Supplementary Rule 3’s instruction
that “the arbitrator shall determine as a threshold
matter . . . whether the applicable arbitration clause
permits the arbitration to proceed on behalf of or
against a class,” and (5) thus the parties delegated
the issue of class arbitration to the arbitrator.

App. 34
Plaintiffs’ argument touches on a circuit split on
whether incorporation of the AAA Rules is sufﬁcient
evidence that the parties clearly and unmistakably
delegated the issue of class arbitration to the arbitrator. Compare Catamaran Corp., 864 F.3d at 973 (concluding that an arbitration agreement’s incorporation
of the AAA Rules without speciﬁc reference to class arbitration is insufﬁcient); Chesapeake Appalachia, LLC
v. Scout Petroleum, LLC, 809 F.3d 746, 761 (3d Cir.
2016) (same), cert. denied, 137 S. Ct. 40 (2016), Reed
Elsevier, 734 F.3d at 599 (concluding that a clause
which incorporated the AAA Rules “does not clearly
and unmistakably assign to an arbitrator the question
whether the agreement permits classwide arbitration”),
with JPay, 904 F.3d at 936-42 (reasoning that incorporation of the AAA Rules is sufﬁcient and explaining
disagreement with Third, Sixth, and Eighth Circuits).
We need not take sides in this circuit split here
because Plaintiffs fail to clear a threshold hurdle.
The crux of Plaintiffs’ argument is our decision in
Brennan v. Opus Bank. The arbitration clause there
provided that “any controversy or claim arising out of
this [Employment] Agreement or [Brennan’s] employment with the Bank or the termination thereof . . .
shall be settled by binding arbitration in accordance
with the Rules of the American Arbitration Association.” 796 F.3d at 1128 (alterations in original; emphasis added). We concluded that, at least in a contract
between sophisticated parties, “incorporation of the
AAA Rules constitutes clear and unmistakable evidence that contracting parties agreed to arbitrate

App. 35
arbitrability.” Id. at 1130 (internal quotation marks
omitted; emphasis added). Thus, we sided with “ ‘[v]irtually every circuit to have considered the issue.’ ” Id.
(ﬁrst alteration in original; quoting Oracle Am., Inc. v.
Myriad Grp. A.G., 724 F.3d 1069, 1074 (9th Cir. 2013)).
Unlike the arbitration clause in Brennan, the Clause
does not incorporate the AAA Rules, and thus Brennan
does not apply.
Unable to identify a textual reference to the AAA
Rules, Plaintiffs nonetheless contend that the “obvious
and unavoidable implication of an agreement to arbitrate before the AAA is an agreement to submit to the
AAA’s arbitration rules.” But we have never held that
a mere reference to the AAA shows clear and unmistakable intent to delegate a gateway issue to an arbitrator, and Plaintiffs identify no authority from any
sister circuit holding as much. Even if we thought the
“obvious and unavoidable implication” of a reference to
the AAA is consent to the AAA Rules when a clause
refers only to the AAA, the Clause here does not do so.
The Clause provides ﬁrst for mediation, second for arbitration by an arbitrator selected by the parties, and,
only if the parties cannot agree on an arbitrator, arbitration before the AAA. We cannot find clear and
unmistakable evidence that the parties intended to
delegate the gateway issue of class arbitration to the
arbitrator by virtue of the AAA Rules when arbitration

App. 36
before the AAA is but the ﬁnal option in the dispute
procedure that the Clause outlines.12
In light of the Clause here, Plaintiffs’ reliance on
Belnap v. Iasis Healthcare, 844 F.3d 1272 (10th Cir.
2017), is misplaced. The arbitration clause there provided that “[t]he arbitration shall be administered by
JAMS and conducted in accordance with its Streamlined Arbitration Rules and Procedures (the “Rules”),
except as provided otherwise herein.” Id. at 1276. Rejecting the plaintiff ’s argument that the agreement
left open the rules that would govern arbitration because the parties could choose another dispute resolution service, the Tenth Circuit explained that “[t]he
plain language of the Agreement establishes the JAMS
Rules as the default controlling rubric.” Id. at 1282.
The Clause here, however, neither refers to the AAA
Rules, nor does it establish those Rules as the “default
controlling rubric.” See id. Although the Clause provides for the possibility that arbitration may occur
before the AAA if the parties cannot agree on an arbitrator, “such a possibility is not enough for us to say
that” the AAA Rules are the Clause’s “ordinary controlling standard.” See id. Because Plaintiffs do not claim
that any other provision demonstrates a clear and unmistakable intent to delegate the availability of class
arbitration to the arbitrator, we conclude that the
12

Plaintiffs contend that only the non-AAA portions of the
Clause are an unenforceable bare agreement to agree and thus
the AAA is the default option. The FAA and Arizona’s Revised
Uniform Arbitration Act, however, both permit enforcement of an
agreement regarding the method of naming or appointing an arbitrator. See 9 U.S.C. § 5; Ariz. Rev. Stat. § 12-1503.

App. 37
availability of class arbitration remains a gateway issue.
C. The Agreements Do Not Permit Class
Arbitration
The ﬁnal issue that we must decide on class arbitration is straightforward. “Neither silence nor ambiguity provides a sufﬁcient basis for concluding that
parties to an arbitration agreement agreed to undermine the central beneﬁts of arbitration itself,” Lamps
Plus, 139 S. Ct. at 1417, namely, “the individualized
form of arbitration envisioned by the FAA,” id. at 1416.
As the district court concluded, because the Agreements are silent on class arbitration, they do not permit it. Thus, the court properly compelled individual
arbitration pursuant to the Agreements.
IV. The Non-Signatory Defendants May Compel Arbitration
The ﬁnal issue for us is whether all Defendants
may compel arbitration of Plaintiffs’ claims. Several
Defendants are not signatories to the Agreements (the
Non-Signatory Defendants). Although only Jim Tehero
and Karl Huish signed the Agreements on Artex and
Tribeca’s behalf, Plaintiffs concede that these Defendants as well as Jeremy Huish and Arthur J. Gallagher
& Co. may compel arbitration. Nevertheless, Plaintiffs

App. 38
argue that no other Non-Signatory Defendant may
compel arbitration.13 We disagree.
“[A] litigant who is not a party to an arbitration
agreement may invoke arbitration under the FAA if
the relevant state contract law allows the litigant to
enforce the agreement.” Kramer, 705 F.3d at 1128 (citing Arthur Andersen LLP v. Carlisle, 556 U.S. 624, 632
(2009)). Arizona law recognizes alternative estoppel,
pursuant to which a non-signatory may compel arbitration of a signatory’s claims. Sun Valley Ranch 308
Ltd. P ‘ship ex rel. Englewood Props., Inc. v. Robson, 294
P.3d 125, 134-35 (Ariz. Ct. App. 2012). A non-signatory
may compel arbitration when “each of a signatory’s
claims against a nonsignatory makes reference to or
presumes the existence of the written agreement,”
such that “the signatory’s claims arise out of and relate
directly to the written agreement.” Id. at 135 (quoting CD Partners, LLC v. Grizzle, 424 F.3d 795, 798
(8th Cir. 2005)).14 As the district court concluded, all

13

The remaining Non-Signatory Defendants include TBS
LLC d/b/a PRS Insurance; Debbie Inman; Epsilon Actuarial Solutions, LLC; Julie A. Ekdom; AmeRisk Consulting, LLC; Provincial Insurance, PCC; Tribeca Strategic Accountants, LLC; and
Tribeca Strategic Accountants, PLC.
14
Alternative estoppel may also apply when “the relationship between the signatory and nonsignatory defendants is sufﬁciently close that only by permitting the nonsignatory to invoke
arbitration may evisceration of the underlying arbitration agreement between the signatories be avoided.” Sun Valley, 294 P.3d
at 134 (quoting CD Partners, 424 F.3d at 798). Because Defendants do not invoke this ground, we decline to address whether
Plaintiffs would be estopped on this basis.

App. 39
Non-Signatory Defendants may compel arbitration
pursuant to this standard.15
Plaintiffs’ allegations about Defendants’ misconduct regarding the captive insurance services presume
and “intimately rel[y]” on the existence of the Agreements. See Kramer, 705 F.3d at 1132. We have already
determined in Part II that Plaintiffs’ claims are subject
to arbitration even if we construe the Clause as limited
to the services and obligations under the Agreements.
It follows that Plaintiffs’ claims necessarily presume
the existence of the Agreements. Indeed, the entire
complaint concerns Defendants’ captive insurance
services, which encompassed the formation, oversight,
operation, and management of captive insurance companies for Plaintiffs pursuant to the Agreements. The
Agreements also provide that Artex and Tribeca would
hire third parties in connection with the services, thus
underscoring that the claims presume the existence of
the Agreements even for the Non-Signatory Defendants. See Sun Valley, 294 P.3d at 135 (ﬁnding that the
nonsignatory “may nevertheless compel plaintiffs to
arbitrate their claims against him” because “the trier
of fact will be required to consider the [underlying
agreements] in resolving plaintiffs’ claims, and [the
non-signatory’s] conduct is intertwined with that of
other defendants who signed the [underlying agreement].”).
15

It is unnecessary for us to resolve the parties’ dispute
about the standard of review for the district court’s decision.
Whether we review de novo or for an abuse of discretion, we afﬁrm
the district court.

App. 40
We are not persuaded by Plaintiffs’ counterarguments. Plaintiffs aver that they could bring all their
claims against the Non-Signatory Defendants regardless of whether the Agreements existed, and thus
alternative estoppel does not apply. This argument
proves nothing because it is not the relevant test under
Arizona law. See id.
Relying on Kramer, 705 F.3d at 1133, Plaintiffs argue further that mere allegations of substantially interdependent and concerted misconduct by signatories
and non-signatories, standing alone, are insufﬁcient to
permit non-signatories to compel arbitration. But in
Kramer we rejected the non-signatory defendants’ invocation of equitable estoppel based only on “sparse
portions” of the pleadings concerning interdependent
conduct by the defendants. Id. In contrast, the FAC
makes pervasive allegations of concerted conduct by
the Defendants. We have also explained why Plaintiffs’
claims presume the existence of the Agreements even
for the Non-Signatory Defendants. Thus, we conclude
that all Non-Signatory Defendants can compel arbitration.
CONCLUSION
For the foregoing reasons, the district court correctly granted Defendants’ motion to compel and ordered arbitration of Plaintiffs’ claims on an individual
basis.
AFFIRMED.

App. 41
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Dimitri Shivkov, et al.,
Plaintiffs,

No.
CV-18-04514-PHX-SMM

v.

ORDER

Artex Risk Solutions
Incorporated, et al.,

(Filed Aug. 5, 2019)

Defendants.
Before the Court is Defendants’ Renewed Joint
Motion to Compel Individual Arbitrations (Doc. 37)
and Defendants’ Joint Motion to Dismiss Amended
Complaint (Doc. 41). The motions have been fully
briefed and are ripe for review. (See Docs. 46-47, 6263.) Plaintiffs and Defendants requested oral argument. (Doc. 37 at 1; Doc. 47 at 1.) The Court denies the
request because the issues have been fully briefed and
oral argument will not aid the Court’s decision. See
Fed. R. Civ. P. 78(b) (court may decide motions without
oral hearing); LRCiv 7.2(f ) (same). For the reasons
that follow, the Court will grant the Renewed Joint Motion to Compel Individual Arbitrations (Doc. 37) and
deny as moot the Joint Motion to Dismiss Amended
Complaint (Doc. 41).
I.

BACKGROUND

Plaintiffs are a number of individuals and corporate entities who separately contracted with either

App. 42
Defendant Artex Risk Solutions Inc. (“Artex”) or Defendant TSA Holdings LLC f/k/a Tribeca Strategic
Advisors LLC (“Tribeca”) to create captive insurance
companies that Plaintiffs believed would alleviate
their tax burden while also providing insurance beneﬁts. According to Plaintiffs, Artex and Tribeca, along
with Defendants TBS LLC d/b/a PRS Insurance, Karl
Huish, Jeremy Huish, Jim Tehero, Arthur Gallagher &
Co., Debbie Inman, Epsilon Actuarial Solutions LLC,
Julie A. Ekdom, AmeRisk Consulting LLC, Provincial
Insurance, Tribeca Strategic Accountants LLC, and
Tribeca Strategic Accountants PLC (collectively, “Defendants”) made material misrepresentations and
omissions to induce Plaintiffs to hire Artex or Tribeca
to set up and manage captive insurance companies for
Plaintiffs, even though Defendants knew the captive
insurance products could not and were not delivering
the advantages Defendants promised. (Doc. 31 at 2432.)
A captive insurance company is an insurance company that is owned by its own insured. (Id. at 33.)
There are two advantages to owning one’s own insurance company. First, for the insured, the premium paid
to the captive is deductible to the insured for tax purposes. (Id.) Second, for the captive and its owners, the
premiums received are not taxable as income. (Id.) The
captive must satisfy certain criteria for the Internal
Revenue Service (the “IRS”) to consider the captive as
a bona ﬁde insurance company and recognize the associated tax beneﬁts. (Id. at 33-34.)

App. 43
Artex and Tribeca1 assist owners of closely held
companies to form captives. (Id. at 36. According to
Plaintiffs, Artex and Tribeca followed the same policies, practices, and procedures for each client in forming these captives. (Id.) First, Artex or Tribeca gave
clients a sales presentation regarding captive insurance. (Id.) Then, if the client indicated that he or she
wished to proceed, Artex or Tribeca arranged for the
preparation of a feasibility study, which was paid for
by the client. (Id. at 36-37.) If the client elected to retain Artex or Tribeca to form a captive, Artex or
Tribeca would then form the captive and manage all
captive operations, for which Artex and Tribeca would
charge a fee. (Id. at 37.)
Each Plaintiff either hired Artex or Tribeca or had
some interest in an entity that hired Artex or Tribeca
to form, operate, and manage their captive(s). (Id. at
42, 65, 74, 83.) These arrangements were formalized in
engagement agreements between a Plaintiff or Plaintiff ’s representative and either Artex or Tribeca (the
“Agreements”).2 (Docs. 38-2, 383, 38-4, 38-5.) The
1

According to Plaintiffs, Tribeca was established by Defendant Karl Huish in 1999. (Doc. 31 at 36.) In December 2010, Artex
acquired substantially all of the assets of Tribeca, and Karl Huish
and his associates continue to operate in Arizona through Artex.
(Id.) In some sections, the FAC appears to discuss Artex and
Tribeca as if they are the same entity. However, because they are
separate entities that formed contractual relationships with different Plaintiffs at different times, the Court will designate them
separately.
2
There are twelve Agreements at issue before the Court.
(Docs. 38-2, 38-3, 38-4, 385.) Some were countersigned by Tribeca and some were countersigned by Artex. They vary in some

App. 44
Agreements outline the responsibilities of the parties,
the fees to be paid for Artex’s or Tribeca’s services, and
the legal relationship between the parties. (See, generally, id.) Plaintiffs allege that Defendants3 made material misrepresentations to Plaintiffs at each stage of
the process outlined above to induce Plaintiffs to hire
them to form and manage their captives in exchange
for substantial fees. (Doc. 31 at 29-30.) While Plaintiffs
identify many speciﬁc, alleged misrepresentations and
omissions, the crux of their allegations is that Defendants represented to Plaintiffs that the captives qualiﬁed as bona ﬁde insurance companies and, as such,
would allow Plaintiffs to obtain beneﬁcial tax treatment. (Id. at 99.) After Plaintiffs had paid substantial
fees to Defendants for formation and management of
their captives and had claimed the tax beneﬁts of owning a captive insurance company, the IRS disallowed
the tax beneﬁts claimed by Plaintiffs, requiring Plaintiffs to pay substantial back taxes, penalties, and interest to the IRS. (Id. at 65, 73, 82, 91.)

particulars. However, all of the Agreements are essentially identical in the portions at issue in the instant motion. Therefore, the
Court focuses its analysis on the Agreement between Artex and
Plaintiff Dimitiri Shivkov as representative of the Artex Agreements (Doc. 38-2 at 1-9), and the Agreement between Tribeca and
Plaintiff Keith Butler as representative of the Tribeca Agreements (Doc. 38-2 at 19-34).
3
Plaintiffs plead most of their allegations generally against
“Defendants,” as a collective. Because the Court lacks further factual detail at this stage of litigation, the Court repeats Plaintiffs’
group pleading here.

App. 45
On December 6, 2019, Plaintiffs, on behalf of themselves and others similarly situated, ﬁled suit against
Defendants with a putative class of “hundreds if not
thousands.” (Doc. 1 at 74; Doc. 31 at 94.) Defendants4
then ﬁled a Joint Motion to Compel Individual Arbitrations (Doc. 22) and a Joint Motion to Dismiss (Doc. 24).
Plaintiffs subsequently ﬁled their First Amended Complaint (the “FAC”) on March 29, 2019, mooting the previous motions.5 (Doc. 31.) The FAC brings claims for
breach of ﬁduciary duty, negligence, negligent misrepresentation, disgorgement, rescission, breach of contract and duty of good faith and fair dealing, fraud,
civil conspiracy, aiding and abetting breach of ﬁduciary
duty and fraud, as well as violations of the federal
Racketeer Inﬂuenced and Corrupt Organizations Act
(“RICO”) and Arizona’s RICO statute. (Doc. 31 at 25.)
Defendants6 then ﬁled their Renewed Joint Motion to
Compel Individual Arbitrations and their Joint Motion
4

Defendants Tribeca Strategic Accountants LLC and Tribeca
Strategic Accountants PLC were not named as defendants in the
original complaint and were not parties to this motion.
5
For this reason, the Joint Motion to Compel Individual Arbitrations and the Joint Motion to Dismiss will be denied as moot.
6
The motion was originally ﬁled by Defendants Artex, Arthur J. Gallagher & Co., Debbie Inman, Epsilon Actuarial Solutions LLC, Julie A. Ekdom, and AmeRisk Consulting LLC. (Doc.
37; see also Doc. 73 (noting that counsel for some Defendants on
the motion had failed to appear as counsel of record, thus disallowing those Defendants’ joinder in the motion).) Defendants TSA
Holdings LLC f/k/a Tribeca Strategic Advisors LLC, TBS LLC
d/b/a PRS Insurance, Karl Huish, Jeremy Huish, Jim Tehero,
Provincial Insurance PCC, Tribeca Strategic Accountants LLC,
and Tribeca Strategic Accountants PLC later joined the motion.
(Docs. 72, 77.)

App. 46
to Dismiss Amended Complaint on April 12, 2019, and
April 19, 2019, respectively. (Docs. 37, 41.) Because the
Court ﬁnds each of Plaintiffs’ claims against Defendants are subject to a binding arbitration clause, the
Court will grant the Renewed Joint Motion to Compel
Individual Arbitrations and deny as moot the Joint
Motion to Dismiss Amended Complaint.
II.

LEGAL STANDARD

Outside of a few exceptions, the Federal Arbitration Act (the “FAA”) “governs the enforceability of arbitration agreements in contracts involving interstate
commerce.” Kramer v. Toyota Motor Corp., 705 F.3d
1122, 1126 (9th Cir. 2013) (citing 9 U.S.C. § 1 et seq.).
Under the FAA, “arbitration is a matter of contract,
and courts must enforce arbitration contracts according to their terms.” Henry Schein, Inc. v. Archer &
White Sales, Inc., 139 S. Ct. 524, 529 (2019) (citing
Rent-A-Ctr., W., Inc. v. Jackson, 561 U.S. 63, 67 (2010)).
However, “as a matter of federal law, any doubts concerning the scope of arbitrable issues should be resolved in favor of arbitration.” Chiron Corp. v. Ortho
Diagnostic Sys., Inc., 207 F.3d 1126, 1131 (9th Cir.
2000) (quoting Moses H. Cone Memorial Hosp. v. Mercury Const. Corp., 460 U.S. 1, 24-25 (1983)).
In determining whether an issue is subject to arbitration, the court must determine: “(1) whether there
is an agreement to arbitrate between the parties; and
(2) whether the agreement covers the dispute.” Brennan v. Opus Bank, 796 F.3d 1125, 1130 (9th Cir. 2015)

App. 47
(citing Howsam v. Dean Witter Reynolds, Inc., 537 U.S.
79, 84 (2002)). “If the answer is yes to both questions,
the court must enforce the agreement.” Lifescan, Inc. v.
Premier Diabetic Servs., Inc., 363 F.3d 1010, 1012 (9th
Cir. 2004) (citing Chiron Corp., 207 F.3d at 1130). The
court’s role “is strictly limited to determining arbitrability and enforcing agreements to arbitrate, leaving
the merits of the claim and any defenses to the arbitrator.” Chiron Corp., 207 F.3d at 1131 (quoting Republic of Nicaragua v. Standard Fruit Co., 937 F.2d 469,
478 (9th Cir. 1991)).
“The scope of an arbitration agreement is governed by federal substantive law,” Kramer, 705 F.3d
at 1126 (citing Tracer Research Corp. v. Nat’l Envtl.
Servs. Co., 42 F.3d 1292, 1294 (9th Cir. 1994)), while
state law “govern[s] issues concerning the validity, revocability, and enforceability of contracts generally.” Kilgore v. KeyBank, Nat’l Ass’n, 718 F.3d 1052, 1058 (9th
Cir. 2013) (quoting Doctor’s Assocs., Inc. v. Casarotto,
517 U.S. 681, 685-87 (1996)); see also Rent-A-Ctr., 561
U.S. at 68 (quoting Doctor’s Assocs., 517 U.S. at 687)
(holding arbitration agreements “may be invalidated
by ‘generally applicable contract defenses, such as
fraud, duress, or unconscionability”). The court “interpret[s] the contract by applying general state-law principles of contract interpretation, while giving due
regard to the federal policy in favor of arbitration by
resolving ambiguities as to the scope of arbitration in
favor of arbitration.” Wagner v. Stratton Oakmont, Inc.,
83 F.3d 1046, 1049 (9th Cir. 1996) (citing Intel Corp. v.

App. 48
Advanced Micro Devices, Inc., 12 F.3d 908, 914 (9th Cir.
1993)).
Where an issue is subject to arbitration, a court
has authority, upon application of one of the parties,
to stay the case pending arbitration. 9 U.S.C. § 3.
However, where all claims in a suit are barred by an
arbitration clause, the court may grant a dismissal.
Johnmohammadi v. Bloomingdale’s, Inc., 755 F.3d
1072, 1074 (9th Cir. 2014) (citing Sparling v. Hoffman
Const. Co., 864 F.2d 635, 638 (9th Cir. 1988)).
III. ANALYSIS
Each of the twelve Agreements signed by Plaintiffs7 include an identical dispute resolution provision
(the “Arbitration Clause” or “Clause”), which reads:
You and we agree that in the event of any dispute that cannot be resolved between the parties, that we will agree to seek to resolve such
disputes through mediation in Mesa, Arizona,
and if that fails, that all disputes will be subject to binding arbitration in Mesa, Arizona,
with arbitrators to be agreed upon by the
parties, and if no agreement is reached, then
arbitrated by the American Arbitration Association (AAA). Each party shall bear its own
costs in such mediation and arbitration. To
reduce time and expenses, we each waive
our right to litigate against one another regarding the services provided and obligations
7

No party contests that the Agreements are binding on all
Plaintiffs.

App. 49
pursuant to this Agreement, and instead you
and we have chosen binding arbitration. All
claims or disputes will be governed by Arizona
law.
(Doc. 38-2 at 7, 29-30.) In their Renewed Joint Motion
to Compel Individual Arbitrations, Defendants argue
that under this Arbitration Clause, all of Plaintiffs’
claims must be arbitrated individually. (Doc. 37 at 2.)
Plaintiffs do not dispute that the Agreements signed
by Plaintiffs include the Arbitration Clause. However,
they argue that the Clause is unenforceable because:
(1) Defendants breached their ﬁduciary duties in obtaining the agreement to arbitrate; (2) the Arbitration
Clause is substantively and procedurally unconscionable; (3) the terms of the Arbitration Clause were beyond Plaintiffs’ reasonable expectations; and (4) the
Arbitration Clause terminated when the Agreements
ended. (Doc. 47 at 8-9.) Plaintiffs further contend that,
even if the Arbitration Clause is enforceable, it only
governs Plaintiffs’ breach-of-contract claim against Artex and Tribeca. (Id. at 9.) All other Defendants, Plaintiffs argue, are not signatories to the Agreements and,
therefore, may not enforce it; and all other claims fall
outside the scope of the Arbitration Clause. (Id.) The
Court considers each of these arguments in turn.

App. 50
A. There Is an Enforceable Agreement to
Arbitrate
1. Breach of Fiduciary Duty
Plaintiffs argue that the Arbitration Clause is invalid because Defendants breached their ﬁduciary duties by failing to notify Plaintiffs of the Arbitration
Clause and explain its meaning. (Doc. 47 at 9.) Defendants dispute that they had any ﬁduciary relationship
with Plaintiffs. (Doc. 63 at 7-8.)
A ﬁduciary duty arises when “the ﬁduciary holds
‘superiority of position’ over the beneficiary.” Standard Chartered PLC v. Price Waterhouse, 945 P.2d 317,
335 (Ariz. Ct. App. 1996) (quoting Rhoads v. Harvey
Publ’ns, Inc., 700 P.2d 840, 847 (Ariz. Ct. App. 1984)).
This superiority of position exists largely when the degree of conﬁdence in the other constitutes “substitution
of that other’s will for his in the material matters involved.” In re Guardianship of Chandos, 504 P.2d 524,
526 (Ariz. Ct. App. 1972) (quoting 15A C.J.S. Confidential, p. 352). “Mere trust in another’s competence
or integrity” is insufﬁcient to create a ﬁduciary relationship. Standard Chartered, 945 P.2d at 335 (citing
Stewart v. Phoenix Nat’l Bank, 64 P.2d 101, 106 (Ariz.
1937); Rhoads, 700 P.2d at 84647). Nor is a ﬁduciary
relationship established where the alleged beneﬁciary
defers to the superior knowledge of the alleged ﬁduciary, “unless the knowledge is of a kind beyond the fair
and reasonable reach of the alleged beneﬁciary and inaccessible to the alleged beneﬁciary through the exercise of reasonable diligence.” Id. at 336 (citing Denison

App. 51
State Bank v. Madeira, 640 P.2d 1235, 1242 (Kan.
1982)). While the existence of a ﬁduciary duty is generally a question of fact, the court may resolve the issue where there is insufﬁcient evidence for a jury to
conclude such a relationship exists. Id. at 335 (citing
Gemstar Ltd. v. Ernst & Young, 917 P.2d 222, 233-34
(Ariz. 1996)).
Plaintiffs contend that a ﬁduciary relationship
arose between the parties because Defendants had superior knowledge of captive insurance and tax law and
Defendants inﬂuenced Plaintiffs in deciding to pursue
the captive insurance strategy. (Doc. 47 at 10.) While
such superior knowledge and inﬂuence may have created a ﬁduciary duty at some point in the parties’ relationship – a question the Court does not resolve here –
Plaintiffs provide no evidence or case law to support
the proposition that such a duty extended to the negotiation of commercial terms between the parties. See
Duerias v. Life Care Ctrs. of Am., Inc., 336 P.3d 763,
771 (Ariz. Ct. App. 2014) (ﬁnding arbitration clause enforceable because plaintiff failed to cite authority subjecting defendant nursing facility to a ﬁduciary duty
“in connection with the purely commercial aspects of
their relationship,” including the arbitration agreements). Instead, Plaintiffs rely wholly upon the district
court’s holding in Katt v. Riepe, No. CV-14-08042-PCTDGC, 2014 WL 3720515 (D. Ariz. July 25, 2014), for the
proposition that a ﬁduciary owes a general duty to
identify and explain an arbitration clause to a beneficiary. (Doc. 47 at 9-10.) However, in Katt, the defendant brokers, while acting in their ﬁduciary capacity,

App. 52
inserted an arbitration clause into a contract they were
negotiating with a third party on behalf of the plaintiffs. Id. at *2. The defendants did not inform the
plaintiffs that the arbitration clause would alter the
contractual terms the plaintiffs and defendants had already negotiated and agreed to in a previous contract.
Id. Unlike in Katt, there are no allegations here that
any Defendant was acting on behalf of Plaintiffs in
negotiating the Agreements, or that the Arbitration
Clause altered an already existing contractual relationship between ﬁduciary and beneﬁciary.
The Agreements created a commercial relationship between the parties and outlined the duties and
obligations of the parties in that relationship. Plaintiffs offer no evidence to support the claim that Defendants had superior knowledge or expertise in
negotiating such terms; nor was technical information
regarding the Arbitration Clause beyond the reach of
Plaintiffs or inaccessible through reasonable diligence.
See Standard Chartered, 945 P.2d at 336 (quoting Denison State Bank, 640 P.2d at 1242). Therefore, mere
trust in the competence of Defendants during negotiation of the Agreements did not create a ﬁduciary duty
to explain all the terms of the contract, including the
Arbitration Clause. See id. at 335 (citing Stewart, 64
P.2d at 106; Rhoads, 700 P.2d at 846-47). Accordingly,
the Court ﬁnds Defendants did not breach any ﬁduciary duty by failing to identify and explain the Arbitration Clause.

App. 53
2. Unconscionability
Next, Plaintiffs argue that the Arbitration Clause
is procedurally and substantively unconscionable.
(Doc. 47 at 11-15.) “It is well-established that unconscionability is a generally applicable contract defense,
which may render an arbitration provision unenforceable.” Coup v. Scottsdale Plaza Resort, LLC, 823
F. Supp. 2d 931, 947 (D. Ariz. 2011) (citing Doctor’s Assocs., 517 U.S. at 686-87). Procedural unconscionability
addresses the fairness of the bargaining process, while
substantive unconscionability is concerned with the
fairness of the actual terms of the contract. Duerias,
336 P.3d at 76869. Each doctrine provides an independent ground to invalidate an agreement. Id. (citing
Maxwell v. Fidelity Fin. Servs., Inc., 907 P.2d 51, 59
(Ariz. 1995)). The plaintiff bears the burden of proving
unconscionability. Pinto v. USAA Ins. Agency Inc. of
Texas (FN), 275 F. Supp. 3d 1165, 1170 (D. Ariz. 2017)
(citing Maxwell, 907 P.2d at 56; Taleb v. AutoNation
USA Corp., No. CV06-02013-PHX-NVW, 2006 WL
3716922, at *2 (D. Ariz. Nov. 13, 2006)). The determination of unconscionability is made by the court as a
matter of law. Maxwell, 907 P.2d at 56 (citing A.R.S.
§ 47-2302).
i. Procedural Unconscionability
Procedural unconscionability “is concerned with
‘unfair surprise,’ ﬁne print clauses, mistakes or ignorance of important facts or other things that mean bargaining did not proceed as it should.” Maxwell, 907

App. 54
P.2d at 57-58 (quoting Dan B. Dobbs, 2 Law of Remedies 706 (2d ed. 1993)). In determining procedural unconscionability, a court considers factors such as: “age,
education, intelligence, business acumen and experience, relative bargaining power, who drafted the contract, whether the terms were explained to the weaker
party, whether alterations in the printed terms were
possible, whether there were alternative sources of
supply for the goods in question.” Id. at 58 (quoting
Johnson v. Mobil Oil Corp., 415 F. Supp. 264, 268 (E.D.
Mich. 1976)).
Here, Plaintiffs fail to offer any evidence that
Plaintiffs were not of adequate age, education, intelligence, business acumen, or experience to enter into the
Agreements, including the Arbitration Clause. In fact,
Plaintiffs attempt to obscure this aspect of the analysis
by omitting these factors from the legal standard entirely. (See Doc. 47 at 13 (citing Maxwell, 907 P.2d at
58).) The fact that Plaintiffs negotiated agreements to
pay “substantial” annual fees to avoid tax liability indicates that Plaintiffs are sophisticated people and
businesses capable of negotiating this type of commercial relationship. (See Doc. 31 at 32.)
Nonetheless, Plaintiffs argue the Arbitration
Clause is procedurally unconscionable because the
Clause was in a “standardized contract” that Plaintiffs
understood to be nonnegotiable; Plaintiffs were not notiﬁed of or explained the Clause; the Clause was not
clearly disclosed in the Agreement; and the Clause
does not explicitly state that Plaintiffs were waiving
their right to a jury. (Doc. 47 at 13-15.) These objections

App. 55
are insufﬁcient to render the Clause unenforceable on
unconscionability grounds.
While the Agreements may have been non-negotiable, standardized contracts, that fact alone does not
render the terms of the Agreements unenforceable. See
Coup, 823 F. Supp. 2d at 948 (citing Equal Emp’t
Opportunity Comm’n v. Cheesecake Factory, Inc., No.
CV08-1207-PHX-NVW, 2009 WL 1259359, at *3 (D.
Ariz. May 6, 2009)). Even an adhesion contract “is fully
enforceable according to its terms unless certain other
factors are present which, under established legal
rules – legislative or judicial – operate to render it otherwise.” Broemmer v. Abortion Servs. of Phoenix, Ltd.,
840 P.2d 1013, 1016 (Ariz. 1992) (alterations omitted)
(quoting Graham v. Scissor–Tail, Inc., 623 P.2d 165,
172 (Cal. 1981)).
The fact that Defendants did not identify or explain the Arbitration Clause to Plaintiffs also does not
render the provision unenforceable. Even where a
standardized contract is at issue, “a party to a contract
is assumed to have read and understood the terms of a
contract he or she signs.” Coup, 823 F. Supp. 2d at 949
(citing Flores v. ADT Sec. Services, Inc., No. CIV 10036-TUC-FRZ, 2011 WL 1211769, at *3 (D. Ariz. Jan.
31, 2011)). There is no indication that Plaintiffs were
the “weaker parties” when negotiating the commercial
transactions with Defendants; therefore, Defendants’
failure to explain the Clause carries no weight. See
Maxwell, 907 P.2d at 58 (quoting Johnson, 415 F. Supp.
at 268) (identifying “whether the terms were explained

App. 56
to the weaker party” as a factor in determining procedural unconscionability).
Plaintiffs further contend that the Clause was unconscionable because it was found in a section entitled
“About this Agreement” and was not capitalized or
bolded or separately initialed, and thus, it was obscured. (Doc. 47 at 13-14.) However, the Clause was
neither obscured nor hidden. It was in the regular text
of relatively short contracts and written in the same
font and spacing as every other portion. (Doc. 38-2 at
7, 29-30.) Despite Plaintiffs’ emphasis on the fact that
the contracts were “8 to 15 single-spaced pages long,”
(Doc. 47 at 14 (emphasis in original)), there is no reason to believe that parties of Plaintiffs’ sophistication
were not capable of reading a contract of such length,
particularly when they knew the Agreements obligated them to pay “substantial fees.” (Doc. 31 at 32.)
Plaintiffs’ claim that, in many cases, the Agreements were signed with other documents in a ‘hurry
up’ fashion” is also not supported by the evidence. (See
Doc. 47 at 14.) Plaintiffs do not cite any portion of the
record to support this assertion. Upon its own review
of the declarations submitted by Plaintiffs, the Court
found only one Plaintiff who stated how long he had to
review the Agreement, and he stated that he did not
return the Agreement for “a few weeks.” (Doc. 48 at 3.)
While some Plaintiffs did state that there was pressure
on them to sign and return the Agreements “so they
could continue the steps that were already in process,”
such vague statements are not sufﬁcient to establish
that Plaintiffs were rushed in a fashion that would

App. 57
make the Arbitration Clause procedurally unconscionable. (Doc. 51 at 4; Doc. 54 at 4; Doc. 55 at 4; Doc. 56 at
4; Doc. 58 at 3-4.)
Lastly, Plaintiffs do not cite any case law to support their assertion that Defendants were required to
clearly state that Plaintiffs were waiving their right to
a jury trial. The Court is also aware of none. Furthermore, the Arbitration Clause states that the parties
“each waive our right to litigate against one another.”
(Doc. 38-2 at 7.) This may not include the word “jury,”
but it is sufﬁciently clear for the average businessperson to understand that he was waiving his right to a
jury trial. Therefore, the Court ﬁnds this argument unpersuasive.
For these reasons, Plaintiffs have failed to establish that the Arbitration Clause is procedurally unconscionable.
ii. Substantive Unconscionability
Plaintiffs also contend that the Agreements are
substantively unconscionable because they include a
“Limitation of Liability” provision (the “Liability Provision”) that would prevent any recovery in this case.
(Doc. 47 at 12-13.) The Liability Provision states:
[Y]ou agree that Artex shall have no liability
(whether direct or indirect, in contract, tort or
otherwise) to you, or to any other person or
entity related to or afﬁliated with you, for any
losses, claims, demands, damages, liabilities,
costs or expenses arising out of, in connection

App. 58
with, in relation to, as a result of, or by reason
of this Agreement or the assistance and services rendered or contemplated hereunder
(collectively, “losses”), other than losses incurred by the insurance company that have
resulted primarily from our gross negligence.8
(Doc. 38-2 at 6.) Plaintiffs argue that as a result of this
provision the Agreements fail “to provide for all of the
types of relief that would otherwise be available in
court,” and are, therefore, unenforceable under Arizona
law. (Doc. 47 at 13 (quoting Williams v. Atl. Specialty
Ins. Co., No. CV-18-00061-TUC-DCB, 2018 WL 2046999,
at *6 (D. Ariz. May 2, 2018)).) However, the Liability
Provision is not part of the Arbitration Clause. It applies to any dispute between the parties whether the
parties resolve their disputes in arbitration or in court.
Thus, Plaintiffs’ objection to the Liability Provision
goes to the validity of the Agreements as a whole, not
the Arbitration Clause. The Supreme Court has clearly
8

The provision is slightly different in some Tribeca Agreements. It reads:
You agree that Tribeca (and its owners, ofﬁcers, employees, afﬁliates, vendors and agents) shall have no
liability (whether direct or indirect, in contract, tort or
otherwise) to you or any person or entity related to or
afﬁliated with you for any losses, claims, taxes, demands, damages, liabilities, costs or expenses arising
out of, in connection with, in relation to, as a result of,
or by reason of this agreement or the services rendered
or contemplated hereunder (collectively, “losses”) other
than the losses incurred by you which have resulted
primarily and directly Tribeca’s reckless and willful
misconduct.
(Doc. 38-2 at 30; Doc. 38-3 at 21; Doc. 38-4 at 31, 47.)

App. 59
held that “an arbitration provision is severable from
the remainder of the contract[,]” and “unless the challenge is to the arbitration clause itself, the issue of
the contract’s validity is considered by the arbitrator
in the ﬁrst instance.” Buckeye Check Cashing, Inc.
v. Cardegna, 546 U.S. 440, 445-46 (2006). Therefore,
Plaintiffs’ argument that the Liability Provision is substantively unconscionable must be resolved by the arbitrator, not by the Court.
3. Reasonable Expectations
Plaintiffs also argue that the Clause is unenforceable because it violates the reasonable-expectations
doctrine. (Doc. 47 at 15-16.) Under Arizona law, a term
in a standardized contract may be unenforceable “if
one party to the contract ‘has reason to believe that the
[other party] would not have accepted the agreement
if he had known that the agreement contained the
particular term.’ ” Harrington v. Pulte Home Corp., 119
P.3d 1044, 1050 (Ariz. Ct. App. 2005) (alteration in
original) (quoting Darner Motor Sales, Inc. v. Universal Underwriters Ins. Co., 682 P.2d 388, 396-97 (Ariz.
1984)). A party’s reason to believe the other party
would not have assented to a term may be “(1) shown
by the prior negotiations, (2) inferred from the circumstances, (3) inferred from the fact that the term is bizarre or oppressive, (4) proved because the term
eviscerates the non-standard terms explicitly agreed
to or (5) proved if the term eliminates the dominant
purpose of the transaction.” Id. (internal quotations
omitted) (quoting Darner Motor Sales, 682 P.2d at

App. 60
397). “Additionally, the doctrine of reasonable expectations (6) requires drafting of provisions which can be
understood if the customer does attempt to check on
his rights and consideration of (7) any other facts relevant to the issue of what the party reasonably expected
in this contract.” Coup, 823 F. Supp. 2d at 945 (internal
quotations and alterations omitted) (quoting Harrington, 119 P.3d at 1051). A term is presumptively valid
unless the reasonable-expectations limitation is shown
to apply. Harrington, 119 P.3d at 1050.
Plaintiffs argue the Arbitration Clause violates
the reasonable-expectations doctrine because (1) Defendants did not speciﬁcally inform Plaintiffs of the
Clause and the fact that they were waiving their right
to a jury trial, and (2) the Clause was obscurely placed
in the “About this Agreement” section of the Agreement
“when all other headings in the Agreement are speciﬁcally labeled.” (Doc. 47 at 15-16 (emphasis in original).) Both arguments fail.
Arizona courts have speciﬁcally rejected any application of the reasonable-expectations doctrine that
predicates the enforceability of an arbitration agreement solely upon either an express waiver of a jury
trial or evidence that the right to a jury trial was knowingly, voluntarily, and intelligently waived. See Harrington, 119 P.3d at 1052, 1054. Plaintiffs argue that
the Arizona Supreme Court’s decision in Broemmer v.
Abortion Servs. of Phoenix, Ltd., 840 P.2d 1013 (Ariz.
1992), imposed such a requirement, but Plaintiffs
read the court’s analysis far too broadly. It is true
that in ﬁnding an arbitration clause in a standardized

App. 61
contract beyond the reasonable expectations of a young
woman seeking an abortion, the Broemmer court noted
that there was no explicit waiver of the plaintiff ’s right
to jury trial in the agreement or evidence of knowing,
voluntary, and intelligent waiver by the plaintiff. Id. at
1017.9 However, the court relied upon multiple additional factors, not present here, in ﬁnding the arbitration clause unenforceable. Id. The court found the
plaintiff was a young woman seeking an abortion and
experiencing a great deal of stress. Id. She had only a
high school education and did not understand what arbitration was. Id. The court also emphasized the fact
that the arbitration provision favored the defendants
by requiring the arbitrator to be a licensed obstetrician/gynecologist. Id. Thus, the Broemmer court considered the relevant factors under the reasonableexpectations doctrine and concluded that the arbitration clause, based on the facts before the court, violated
the plaintiff ’s reasonable expectations. See Harrington, 119 P.3d at 1054 (discussing Broemmer). None of
the factors present in Broemmer are present in this
9

Plaintiffs also cite a California state court case for the proposition that “[t]he essential factor in determining whether a contract term is within the reasonable expectations of the weaker
party is whether that ‘party is . . . given plain and clear notice of
the contract term.’ ” (Doc. 47 at 16 (citing Marin Storage & Trucking, Inc. v. Benco Contracting & Eng g, Inc., 89 Cal. App. 4th
1042, 1057 (Cal. Ct. App. 2001)). However, the California court
applies California law and directly contradicts the holding of an
Arizona court that “the lack of a conspicuous and explicit waiver
of the right to jury trial does not mean [an] arbitration clause [is]
beyond [a party’s] reasonable expectations.” Harrington, 119 P.3d
at 1053.

App. 62
case, which involves a commercial transaction between
sophisticated parties and a neutral arbitration provision that does not favor either party. Therefore, the
Court ﬁnds that the Arbitration Clause did not violate
the reasonable-expectations doctrine because it failed
to include an explicit waiver of the right to a jury trial.
Plaintiffs second argument regarding the obscurity of the Arbitration Clause is unpersuasive for the
reasons already discussed. The Clause had the same
font, spacing, and structure as every other provision
in relatively short Agreements and was, therefore,
not obscured. Accordingly, the Court finds that the
Arbitration Clause does not violate the reasonableexpectations doctrine. See Harrington, 119 P.3d at
1053 (upholding arbitration clause where “[t]he font
size for the text was neither abnormally small nor different from the other contract provisions”).
4. Termination of the Agreement
Finally, Plaintiffs argue the Arbitration Clause is
unenforceable because, for most Plaintiffs, the agreement to arbitrate ended when the Agreements were
terminated pursuant to the Agreements’ “Termination and Withdrawal” section (the “Termination Provision”).10 (Doc. 47 at 17-18.) The Termination Provision

10

The Termination Provision is found in the Agreements
with Plaintiffs Dimitri Shivkov, Robert C. Miller, John Linder,
Nadim B. Bikhazi, Blake G. Welling, Bradley S. Bullard, Ryan P.
Frank, and Paul M. McHale. (Doc. 38-2 at 5, 13; Doc. 38-3 at 5,
29; Doc. 38-4 at 5, 15; Doc. 38-5 at 5, 14.) It is identical in each

App. 63
outlines how the Agreements may be terminated by either party and then provides a survival clause (the
“Survival Clause”) that reads: “The terms of this section shall survive the termination of this Agreement
and/or the dissolution or other effective termination of
the business of [Artex or Tribeca].” (Doc. 38-2 at 5.)
Plaintiffs contend that because the Survival Clause
only applies to the Termination Provision itself, under
the rule of expressio unius est exclusion alterius, meaning “to express or include one thing implies the exclusion of the other,” there is a clear implication that the
parties did not intend the Arbitration Clause to survive termination of the Agreements. (Doc. 47 at 17-18.)
Expressio Unius Est Exclusio Alterius, BLACK’S LAW
DICTIONARY (11th ed. 2019).
It is well established that termination of an
agreement does not automatically extinguish the
duty to arbitrate disputes arising under an agreement. Operating Eng’rs Local Union No. 3 v. Newmont
Min. Corp., 476 F.3d 690, 693 (9th Cir. 2007) (citing
Nolde Bros., Inc. v. Local No. 358, Bakery & Confectionary Workers Union, 430 U.S. 243, 251-52 (1977)). There
is a presumption that, absent a contrary indication, a
valid arbitration clause continues to bind parties after
termination of the agreement if the relevant dispute
arises under that agreement. See Nolde Bros., 430 U.S.
at 255; Operating Eng’rs, 476 F.3d at 693 (quoting Litton Fin. Printing Div., Inc. v. NLRB, 501 U.S. 190, 206

Agreement, except to the extent that it identiﬁes Artex or Tribeca
for purposes of the dissolution and effective termination clause.

App. 64
(1991)). This presumption “must be negated expressly
or by clear implication.” Nolde Bros., 430 U.S. at 255.
The Ninth Circuit Court of Appeals has not addressed whether failure to list an arbitration clause in
a survival clause is sufﬁcient to override the presumption that an arbitration agreement continues to apply
post-expiration. The Sixth Circuit, however, addressed
this question in Huffman v. Hilltop Companies, LLC,
747 F.3d 391 (6th Cir. 2014). The Huffman Court held
that in answering this question a court should consider
“the contract as a whole – the survival clause and its
relationship to the other clauses in the agreement – . . .
to determine whether the parties unambiguously intended for the arbitration clause to expire with the contract.” Id. at 397. Applying this standard, the Sixth
Circuit noted that neither the agreement’s severability
nor integration clauses were listed in the survival
clause and that it was illogical to conclude the parties
did not intend these clauses to remain in effect after
expiration of the agreement. Id. As a result, the court
concluded there was ambiguity as to whether the survival clause was meant to be exhaustive and the fact
that the arbitration clause was not listed in the survival clause was insufﬁcient to overcome the presumption in favor of post-expiration arbitration. Id. At least
one Ninth Circuit district court has adopted this rationale. See OwnZones Media Network, Inc. v. Sys. in
Motion, LLC, No. C14-0994JLR, 2014 WL 4626302, at
*7 (W.D. Wash. Sept. 15, 2014).
The Court confronts nearly identical facts here.
The Agreements contain integration and severability

App. 65
clauses that, like the Arbitration Clause, are not included in the Survival Clause. (Doc. 38-2 at 6, 15; Doc.
38-3 at 6, 30-31; Doc. 38-4 at 6-7, 16; Doc. 38-5 at 6, 15.)
Under the interpretation offered by Plaintiffs, the only
provisions which would survive termination of the
Agreements are those included within the Termination
Provision that dictate how fees and services will be ﬁnalized and related documents distributed. (Doc. 382
at 5.) Just as in Huffman, “it is illogical to conclude
that upon expiration of the contract, the parties no
longer intended the agreement to be severable” or intended “the ban on extrinsic evidence to be in effect
only prior to the agreement’s expiration.” 747 F.3d at
397. Thus, it is ambiguous whether the Survival
Clause is an exhaustive list of provisions intended to
survive expiration of the Agreements.
Plaintiffs, however, contend that Huffman and
OwnZones are distinguishable because they “involve
and hinge on the combination of a broad arbitration
clause and a free-standing ‘survival’ clause, neither of
which is present here.” (Doc. 47 at 18 n.15 (citing Bonner v. Michigan Logistics Inc., 250 F. Supp. 3d 388, 39596 (D. Ariz. 2017) (citing Huffman, 747 F.3d at 397-98;
OwnZones, 2014 WL 4626302, at *7)).) The Court disagrees. Huffman may have noted that the arbitration
clause at issue was broadly worded and, therefore, entitled to a greater presumption of arbitrability, but the
Sixth Circuit applied the “clear implication” standard
set out in Nolde, which applies no matter the breadth
of the arbitration clause. Id. at 395, 397-98. That is the
standard the Court applies here.

App. 66
There is also no indication that the “free-standing”
nature of the survival clauses at issue in Huffman and
OwnZone played any role in the courts’ reasoning. If
anything, the fact that the Survival Clause here was
included within the Termination Provision, weakens
Plaintiffs’ argument that it was intended to be an exhaustive list of provisions surviving expiration, as it
suggests that the parties simply wanted to make clear
that provisions governing dissolution of the Agreements survived termination. An exhaustive survival
clause was more likely to be free standing.
Because it is ambiguous whether the Survival
Clause is exhaustive, there is no clear implication that
the parties did not intend the Arbitration Clause to
survive termination of the Agreements and the presumption in favor of arbitrability dictates that the
Clause survives expiration.
As Plaintiffs do not contest that they signed the
Clause and have failed to show that it is unenforceable,
the Court must next determine whether the Clause covers the claims and Defendants at issue in this matter.
See Brennan, 796 F.3d at 1130 (citing Howsam, 537
U.S. at 84) (holding a court must determine “(1) whether
there is an agreement to arbitrate between the parties;
and (2) whether the agreement covers the dispute”).

App. 67
B. The Arbitration Clause Covers All Claims
Against Each Defendant
1. Claims Covered
Agreement

by

the Arbitration

Plaintiffs argue that every claim, but their breachof-contract claim, falls beyond the scope of the Arbitration Clause. (Doc. 47 at 18-20.) Their argument relies
upon the unusual structure of the Clause. In its ﬁrst
sentence, the Clause states broadly that the parties
“agree that in the event of any dispute that cannot be
resolved between the parties, that [they] agree to seek
to resolve such disputes through mediation . . . , and if
that fails, that all disputes will be subject to binding
arbitration.” (Doc. 38-2 at 7, 29-30 (emphasis added).)
However, the paragraph then goes on to state: “To reduce time and expenses, we each waive our right to
litigate against one another regarding the services provided and obligations pursuant to this Agreement, and
instead you and we have chosen binding arbitration.”
(Id. (emphasis added).) Plaintiffs argue that the latter
sentence narrows the broader ﬁrst sentence by enumerating the speciﬁc subjects that are subject to arbitration – those “regarding the services provided and
obligations pursuant to this Agreement.” (Doc. 47 at
19.) They contend that another provision, which provides that “Artex does not provide any legal, tax or accounting advice,’ excludes tax and legal advice from
the scope of the Agreements. (Id.) Because Plaintiffs’
claims “stem from Defendants’ erroneous legal and tax

App. 68
advice,”11 they argue, their claims do not regard the
services and obligations under the Agreements and
are, thus, not subject to arbitration. (Id. at 20.) This argument is unpersuasive.
Assuming, as Plaintiffs contend, that the Arbitration Clause is limited to those disputes “regarding
the services provided and obligations pursuant to
this Agreement,” the Clause is nevertheless broadly
worded to encompass each of Plaintiffs’ claims. Plaintiffs argue that the Arbitration Clause here is similar
to that at issue in Mesquite Lake Assocs. v. Lurgi Corp.,
which the Northern District of California held to have
a “narrow deﬁnition of arbitrable issues.” 754 F. Supp.
161, 163 (N.D. Cal. 1991). However, in Mesquite Lake,
the arbitration clause stated that “any controversy or
dispute between the Parties concerning this Agreement and speciﬁcally subject to resolution pursuant to
this Article shall be subject to arbitration.” Id. at 162
(emphasis added). The Mesquite Lake court then identiﬁed “[t]hree other clauses in the contract [that] delineate the areas of dispute which are ‘speciﬁcally subject
to resolution’ by arbitration.” Id. Here, there is no “specifically subject to resolution” limitation in the Arbitration Clause; it covers any dispute “regarding the
services provided and obligations pursuant to this
Agreement.” (Doc. 38-2 at 7.)

11

This is found in the Agreement with Plaintiff Shivkov. The
other Agreements provide similar, although not always identically worded, limitations. (Doc. 38-2 at 15, 30; Doc. 383 at 7, 21,
31; Doc. 38-4 at 7, 17, 31, 47; Doc. 38-5 at 7.)

App. 69
In practical effect, the Arbitration Clause is
largely indistinguishable from arbitration clauses covering “[a]ll disputes arising in connection with” an
agreement, which the Ninth Circuit has held should be
liberally construed. See Simula, Inc. v. Autoliv, Inc., 175
F.3d 716, 721 (9th Cir. 1999). The Court ﬁnds no substantive difference between those disputes “arising in
connection with” and those “regarding” an agreement.
See Family Prod. LLC v. Infomercial Ventures P’ship.,
No. CV0700926JVSCWX, 2010 WL 11519420, at *2
(C.D. Cal. Apr. 14, 2010) (ﬁnding language subjecting
“any dispute regarding this Agreement” to arbitration,
“substantively identical” to “[a]ll disputes arising in
connection with” the agreement). Moreover, a contract
of the type at issue here consists primarily, if not entirely, of services and obligations; so, it is unclear what
aspects of the Agreements, if any, fall beyond the services and obligations under the Agreements. If there is
a limitation effected by the restriction of the Arbitration Clause to “services” and “obligations,” that limitation does not restrict the reach of this otherwise
broadly worded clause into any matters regarding
those services and obligations. See Mitsubishi Motors
Corp. v. Soler Chrysler-Plymouth, Inc., 473 U.S. 614,
624 n.13 (1985) (holding “the exclusion of some areas
of possible dispute from the scope of an arbitration
clause does not serve to restrict the reach of an otherwise broad clause in the areas in which it was intended to operate”). Therefore, the Arbitration Clause
is broadly worded and should be liberally construed.
See Simula, 175 F.3d at 721.

App. 70
Where an arbitration agreement is broadly
worded, the factual allegations underlying a claim
need only “touch matters” covered by the arbitration
agreement in order for the claim to be sent to arbitration. Mitsubishi Motors, 473 U.S. at 624 n.13; see also
Simula, 175 F.3d at 720 (citing Mitsubishi Motors, 473
U.S. at 624 n.13; Genesco, Inc. v. Kakiuchi & Co., 815
F.2d 840, 846 (2d Cir. 1987)) (applying the “touch matters” standard in determining the scope of arbitration
clause covering 101 disputes arising in connection
with” the agreement). Applying the standard here, the
Court must determine whether the factual allegations
underlying Plaintiffs’ claims “touch matters” regarding
the services provided and obligations pursuant to the
Agreements. The Court ﬁnds each of Plaintiffs’ claims
satisfy this standard.
Although some portions of Plaintiffs’ claims do
stem from “Defendants’ erroneous legal and tax advice,” each of Plaintiffs’ claims is fundamentally about
Defendants’ role in inducing Plaintiffs to engage Artex
or Tribeca to form and manage captive insurance companies and for their alleged failure to do so in a manner
that provided the beneﬁts Plaintiffs were promised.12
12

The focus of Plaintiffs’ claims makes this matter distinguishable from Khan v. BDO Seidman, LLP, 935 N.E.2d 1174 (Ill.
App. Ct. 2010), upon which Plaintiffs rely to argue that their
claims fall outside the scope the Arbitration Clause. (See Doc. 47
at 20.) In Khan, the plaintiffs sued for ﬁnancial harm resulting
from the defendants “(1) giving them dishonest investment advice, (2) preparing defective income-tax returns for them, and (3)
conspiring with law ﬁrms to issue bogus opinion letters attesting
to the legality of losses claimed in the tax returns.” Khan, 935
N.E.2d at 1178. The court found this type of tax and legal advice

App. 71
Thus, each claim relates directly to how the Agreements were created and how the services and obligations under those Agreements were performed. For
example, Plaintiffs’ ﬁduciary-duty claim states that
Defendants breached their ﬁduciary duties by, inter
alia, “[o]rchestrating the design, development, implementation, operation, and management of the Captive
Insurance Strategies” and “[a]dvising, instructing, and
assisting Plaintiffs . . . in the purchase and execution
of the captive insurance policies.” (Doc. 31 at 139, 142.)
These allegations would require a jury to assess the
services promised under the Agreements and the services ultimately provided. The same factual allegations
underlie Plaintiffs’ RICO, negligent misrepresentation,
and fraud claims. (Id. at 114, 117, 149, 157, 160.) Therefore, each of these claims is covered by the Arbitration
Clause.
Plaintiffs’ disgorgement and rescission claims
are even more directly related to the services and obligations under the Agreements. Plaintiffs seek disgorgement of the fees Defendants charged for their
services related to the captives. (Id. at 151.) Under the
Agreements, Plaintiffs agreed to pay thousands of dollars annually for the formation and management of
their captives. (See, e.g., Doc. 38-2 at 3-4, 21-22.) Therefore, Plaintiffs’ disgorgement claim is, at least in part,
about the parties’ obligations under the Agreements.
was excluded from the scope of the agreement. Id. at 1194-95.
Here, Plaintiffs’ claims are focused on the formation and management of the captives, actions related to the services and obligations under the Agreement.

App. 72
Plaintiffs’ rescission claim is also speciﬁcally about the
parties’ obligations under the Agreements as it seeks
rescission of those Agreements. (Doc. 31 at 152-53.)
Plaintiffs’ negligence claim also relies on the
Agreements. Actual damages are a necessary element
of any negligence claim. Gipson v. Kasey, 150 P.3d 228,
230 (Ariz. 2007) (citing Ontiveros v. Borak, 667 P.2d
200, 204 (Ariz. 1983)) (“To establish a claim for negligence, a plaintiff must prove four elements: (1) a duty
requiring the defendant to conform to a certain standard of care; (2) a breach by the defendant of that standard; (3) a causal connection between the defendant’s
conduct and the resulting injury; and (4) actual damages.”) Plaintiffs allege that they suffered damages in
the form of fees and premiums paid to Defendants “for
insurance . . . advice” and that Defendants’ negligence
caused those damages. (Doc. 31 at 147-48.) As noted
above, Plaintiffs paid thousands to Defendants for the
formation and management of their captives under the
terms of the Agreements. (See e.g., Doc. 38-2 at 3-4, 2122.) Therefore, Plaintiffs’ negligence claim requires
construction of and reliance on the Agreements to
show damages and is, therefore, subject to the Arbitration Clause.
Finally, Plaintiffs’ conspiracy and aiding-andabetting claims are derivative of all other claims and,
therefore, subject to the Arbitration Clause. As a result, each of Plaintiffs’ claims touches matters regarding the services provided and obligations pursuant to
the Agreements and is subject to arbitration.

App. 73
2. All Defendants May Compel Arbitration
While all claims are subject to arbitration, Artex
and Tribeca are the only Defendants who are parties
to the Agreements. Defendants argue that those Defendants who are not parties to the Agreements may
nevertheless compel arbitration under estoppel principles. (Doc. 37 at 13 n.4; Doc. 63 at 12.) Plaintiffs contend that Defendants have failed to satisfy the
elements of equitable estoppel and thus only Artex and
Tribeca, as signatories to the Agreements, may compel
arbitration. (Doc. 47 at 20-21.)
Under the FAA, a non-signatory to an agreement
may invoke arbitration if the relevant state contract
law allows the non-signatory to enforce the agreement.
Kramer, 705 F.3d at 1128 (citing Arthur Andersen LLP
v. Carlisle, 556 U.S. 624, 632 (2009)). Arizona courts
have adopted the “alternative estoppel” theory to determine whether a non-signatory to an arbitration
agreement may compel arbitration by a signatory. Sun
Valley Ranch 308 Ltd. P’ship ex rel. Englewood Props.,
Inc. v. Robson, 294 P.3d 125, 134-35 (Ariz. Ct. App.
2012). A non-signatory may enforce an arbitration
clause against a signatory when: (1) “the relationship
between the signatory and nonsignatory defendants is
sufficiently close that only by permitting the nonsignatory to invoke arbitration may evisceration of
the underlying arbitration agreement between the signatories be avoided”; or (2) “each of a signatory’s claims
against a nonsignatory makes reference to or presumes the existence of the written agreement,” such
that “the signatory’s claims arise out of and relate

App. 74
directly to the written agreement.” Id. at 134-35 (quoting CD Partners, LLC v. Grizzle, 424 F.3d 795, 798 (8th
Cir. 2005)).
Here, the Court ﬁnds that the non-signatory Defendants may compel arbitration because Plaintiffs’
claims arise out of and relate directly to the Agreements. Plaintiffs pleaded each of their claims against
“Defendants” as a whole, rarely distinguishing between the signatory and non-signatory Defendants.
And, as the Court determined above, all of Plaintiffs’
claims relate to the services and obligations provided
under the Agreements.13 Therefore, each of the claims
against the non-signatory Defendants sufﬁciently
arise out of and relate to the Agreements to allow for
the non-signatory defendants to rely on the Arbitration
Clause through estoppel principles. See Sun Valley
Ranch, 294 P.3d at 135 (ﬁnding alternative estoppel
standard met where the court had already determined that each claim arose out of and related to the
13

Plaintiffs argue in their responses to the notices of joinder
that the non-signatory Defendants have not been sued for breach
of the Agreements and, therefore, may not rely on estoppel for
purposes of the breach-of-contract claim. (Doc. 79 at 3; Doc. 83 at
3.) The FAC alleges that Plaintiffs were third-party beneﬁciaries
of agreements between Defendants and these agreements included promises that Defendants “would provide services in
connection with forming, managing, calculating premiums for,
analyzing risks for, calculating taxes for, and ﬁling tax returns
for captive insurance companies.” (Doc. 31 at 155.) As the Court
noted above, the formation and management of the captives occurred under the Agreements. Therefore, any beneﬁts Plaintiffs
received from unidentiﬁed agreements between the various Defendants relate to the services and obligations provided under the
Agreements.

App. 75
agreement in determining which claims were subject
to the arbitration agreement).
C. The Court Must Compel Individual Arbitration
Lastly, Defendants request that the Court compel
individual, rather than class, arbitration. (Doc. 37 at
17.) Plaintiffs argue that the Court should allow the
arbitrator to decide whether class arbitration is available. (Doc. 47 at 21.) The Court ﬁrst addresses who
should decide whether the dispute is subject to class
arbitration and then considers whether the Court
should compel class arbitration here.
Generally, whether a particular dispute is subject
to arbitration – the question of arbitrability – is “an
issue for judicial determination [u]nless the parties
clearly and unmistakably provide otherwise.’ ” Howsam, 537 U.S. at 83 (quoting AT & T Techs., Inc. v.
Commc’ns Workers, 475 U.S. 643, 649 (1986)); see also
Local Joint Exec. Bd. v. Mirage Casino-Hotel, Inc., 911
F.3d 588, 595-96 (9th Cir. 2018). Questions of arbitrability exist “where contracting parties would likely
have expected a court to have decided the gateway
matter, where they are not likely to have thought that
they had agreed that an arbitrator would do so, and,
consequently, where reference of the gateway dispute
to the court avoids the risk of forcing parties to arbitrate a matter that they may well not have agreed to
arbitrate.” Howsam, 537 U.S. at 83-84. On the other
hand, questions the parties would typically expect to

App. 76
be resolved by an arbitrator, such as procedural questions, “which grow out of the dispute and bear on its
ﬁnal disposition,” are presumptively resolved by the
arbitrator, not the court. Id. at 84 (quoting John Wiley
& Sons, Inc. v. Livingston, 376 U.S. 543, 557 (1964)).
Neither the Supreme Court nor the Ninth Circuit
has yet concluded whether determination of class
availability is a question of arbitrability presumptively
for a court to resolve. However, nearly every circuit
court to have considered the question has found that
class arbitrability is a gateway question for judicial determination. See JPay, Inc. v. Kobel, 904 F.3d 923, 936
(11th Cir. 2018) (deciding that the question of class arbitration lies with the courts); Catamaran Corp. v.
Towncrest Pharmacy, 864 F.3d 966, 972 (8th Cir. 2017)
(same); Del Webb Cmtys., Inc. v. Carlson, 817 F.3d 867,
876-77 (4th Cir. 2016) (same); Opalinski v. Robert Half
Int’l Inc., 761 F.3d 326, 334 (3d Cir. 2014) (same); Reed
Elsevier, Inc. ex. rel. LexisNexis Div. v. Crockett, 734
F.3d 594, 599 (6th Cir. 2013) (same); but see Robinson
v. J & K Admin. Mgmt. Servs., Inc., 817 F.3d 193, 197
(5th Cir. 2016) (deciding that questions of class arbitrability should be deferred to an arbitrator). These
courts generally reasoned that the differences between
class and bilateral arbitration are so fundamental and
substantial that the availability of class arbitration is
a gateway question “that determines what type of proceeding will determine the parties’ rights and obligations” and “that contracting parties would expect a
court to decide.” JPay, Inc., 904 F.3d at 936; see also
Catamaran Corp., 864 F.3d at 972; Del Webb Cmtys.,

App. 77
817 F.3d at 869; Opalinski, 761 F.3d at 334; Reed Elsevier, 734 F.3d at 598-99.
Supreme Court precedent supports the circuit
courts’ reasoning. Although a plurality of the Supreme
Court held that class arbitrability is a question for the
arbitrator in Green Tree Fin. Corp. v. Bazzle, 539 U.S.
444, 452-53 (2003), since that time, the Supreme Court
has “given every indication, short of an outright holding, that classwide arbitrability is a gateway question.”
Reed Elsevier, 734 F.3d at 598. In determining whether
parties to an arbitration agreement agreed to class arbitration, the Supreme Court held that class arbitration “changes the nature of arbitration to such a degree
that it cannot be presumed the parties consented to it
by simply agreeing to submit their disputes to an arbitrator.” Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp.,
559 U.S. 662, 685 (2010). Addressing the same question
in another case, the Court emphasized that class arbitration “sacriﬁces the principal advantage of arbitration – its informality – and makes the process slower,
more costly, and more likely to generate procedural
morass than ﬁnal judgment.” Lamps Plus, Inc. v.
Varela, 139 S. Ct. 1407, 1416 (2019) (quoting AT&T
Mobility LLC v. Concepcion, 563 U.S. 333, 348 (2011)).
It also “raises serious due process concerns by adjudicating the rights of absent members of the plaintiff
class . . . with only limited judicial review.” Id. (citing
Concepcion, 563 U.S. at 349). Because of these differences, the Supreme Court has held that “courts may
not infer consent to participate in class arbitration absent an afﬁrmative ‘contractual basis for concluding

App. 78
that the party agreed to do so.’ ” Id. (emphasis in original) (quoting Stolt-Nielsen S.A., 559 U.S. at 684).
The Supreme Court’s reasoning is equally applicable to the question of who resolves the question of class
arbitrability. See Oxford Health Plans LLC v. Sutter,
569 U.S. 564, 575 (2013) (Alito, J., concurring) (noting
that because class arbitration seeks to bind class members who have not consented to an arbitrator’s authority, courts should be wary of allowing an arbitrator to
decide questions of class arbitrability). Given the fundamental differences between bilateral and class arbitration, the Court follows the majority of circuit courts
in holding that the availability of classwide arbitration
is a gateway question of arbitrability decided by the
Court, unless there is clear and unmistakable evidence
that the parties intended the arbitrator to decide. See
Howsam, 537 U.S. at 83.
The Agreements at issue here are silent as to who
should decide the question of class arbitrability. Plaintiffs argue that clear and unmistakable evidence that
the parties intended for the arbitrator to decide the issue can be found in the fact that the Agreements incorporate the American Arbitration Association (“AAA”)
rules into the Arbitration Clause. (Doc. 47 at 21-22.)
But Plaintiffs’ argument misrepresents the Arbitration Clause.
The relevant portion of the Clause states that arbitration will occur “with arbitrators to be agreed upon
by the parties, and if no agreement is reached, then
arbitrated by the American Arbitration Association

App. 79
(AAA).” (Doc. 38-2 at 7.) Thus, the Arbitration Clause
does not explicitly refer to AAA rules and it indicates
that the AAA will arbitrate only if the parties fail to
agree upon an arbitrator. Both factors make the Clause
ambiguous as to whether the parties intended to allow
an arbitrator to decide questions of arbitrability.
Relying on the Eleventh Circuit’s decision in Spirit
Airlines, Inc. v. Maizes, 899 F.3d 1230, 1232 (11th Cir.
2018), Plaintiffs argue that the Agreements’ reference
to the AAA as an arbitrator is sufﬁcient to incorporate
the AAA rules. (Doc. 47 at 21-22.) They contend that
Spirit Airlines holds that an arbitration agreement
making reference to the AAA, but not speciﬁc AAA
rules, indicates that the parties plainly chose AAA
rules. (Doc. 47 at 21.) But the agreement at issue in
Spirit Airlines stated that any dispute would be resolved “in accordance with the rules of the American
Arbitration Association then in effect.” 899 F.3d at
1232. Therefore, the case simply does not support
Plaintiffs’ proposition.
Plaintiffs also argue that the condition precedent
of failing to agree to an arbitrator has been satisﬁed by
their refusal to arbitrate, making the AAA rules binding, or, at the very least, indicating that an arbitrator
should decide whether the condition has been satisﬁed.
(Doc. 47 at 23.) However, a court should analyze the
parties’ intent from the time the parties entered into
the contract. Taylor v. State Farm Mut. Auto. Ins., 854
P.2d 1134, 1139 (Ariz. 1993). Thus, the satisfaction of a
condition precedent is irrelevant to the Court’s determination of Plaintiffs’ and Defendants’ intent when

App. 80
they entered into the Agreements. The fact that the
AAA rules were not incorporated explicitly into the
Clause and an AAA arbitrator is designated only as
backup arbitrator makes the parties’ intent ambiguous at the time of contract formation, regardless of
whether the condition precedent for selecting an AAA
arbitrator was later met. Therefore, the Agreements do
not contain clear and unmistakable evidence that the
parties intended for an arbitrator to determine class
arbitrability and the question remains with the Court.
Defendants ask the Court to compel individual arbitration, arguing there is no contractual basis to conclude the parties agreed to class arbitration. (Doc. 37
at 17.) A court may not compel class arbitration unless
there is a clear contractual basis for concluding the
parties agreed to do so. Stolt-Nielsen S.A., 559 U.S. at
684. Neither silence nor ambiguity in a contract is
sufficient to show that the parties agreed to class arbitration. Lamps Plus, 139 S. Ct. at 1416. Here, the
Agreements are silent as to class arbitration and
Plaintiffs’ offer no argument for how the Agreements
indicate that the parties agreed to class arbitration.
Accordingly, the Court must compel individual arbitration.
IV. CONCLUSION
For the reasons above, the Court ﬁnds that Defendants’ Renewed Joint Motion to Compel Individual
Arbitrations (Doc. 37) should be granted. Plaintiffs
must individually arbitrate their claims against

App. 81
Defendants. Because all claims in this suit are barred
by the Arbitration Clause, the Court will dismiss without prejudice this action in its entirety. See Johnmohammadi, 755 F.3d at 1074 (citing Sparling, 864 F.2d
at 638). All pending motions are denied as moot.
Accordingly,
IT IS HEREBY ORDERED granting Defendants’ Renewed Joint Motion to Compel Individual Arbitrations (Doc. 37).
IT IS FURTHER ORDERED that Plaintiffs
must individually arbitrate their claims against Defendants.
IT IS FURTHER ORDERED denying as moot
Defendants’ Joint Motion to Compel Individual Arbitrations (Doc. 22); Joint Motion to Dismiss (Doc. 24);
and Joint Motion to Dismiss Amended Complaint (Doc.
41).
IT IS FURTHER ORDERED dismissing without prejudice the claims against Defendants Artex
Risk Solutions Inc., TSA Holdings LLC f/k/a Tribeca
Strategic Advisors LLC, TBS LLC d/b/a PRS Insurance, Karl Huish, Jeremy Huish, Jim Tehero, Arthur
Gallagher & Co., Debbie Inman, Epsilon Actuarial
Solutions LLC, Julie A. Ekdom, AmeRisk Consulting LLC, Provincial Insurance, Tribeca Strategic Accountants LLC, and Tribeca Strategic Accountants
PLC.

App. 82
IT IS FURTHER ORDERED directing the
Clerk of Court to enter judgment in favor of Defendants and against Plaintiffs.
Dated this 5th day of August, 2019.
/s/ Stephen M. McNamee
Honorable Stephen M. McNamee
Senior United States District Judge

App. 83
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DIMITRI SHIVKOV, individually and as a trustee of the
Phoenix 2010 Revocable Trust;
VASSIL ZHIVKOV, on behalf
of themselves and all others
similarly situated; KRISTINA
TSONEV, on behalf of themselves and all others similarly
situated; SPECTRA SERVICES,
INC., on behalf of themselves
and all others similarly situated; DVS HOLDINGS LLC,
on behalf of themselves and
all others similarly situated;
ROBERT C. MILLER, on behalf
of themselves and all others
similarly situated; BRENDA
MAE MILLER, on behalf of
themselves and all others
similarly situated; BRUCE G.
ROBINSON, on behalf of themselves and all others similarly
situated; SARA VAN ALSTYNE
ROBINSON, on behalf of themselves and all others similarly
situated; SYMPHONY HOMES
LLC, on behalf of themselves
and all others similarly situated; SYMPHONY DEVELOPMENT CORPORATION, on
behalf of themselves and all

No. 19-16746
D.C. No.
2:18-cv-04514-SMM
District of Arizona,
Phoenix
ORDER
(Filed Oct. 28, 2020)

App. 84
others similarly situated;
KEITH BUTLER, on behalf of
themselves and all others similarly situated; REBECCA M.
BUTLER, on behalf of themselves and all others similarly
situated; ERIC K. WILKE, on
behalf of themselves and all
others similarly situated;
JULIE T. WILKE, on behalf
of themselves and all others
similarly situated; JOHN
LINDER, on behalf of themselves and all others similarly
situated; NINA LINDER, on
behalf of themselves and all
others similarly situated;
AFFILION OF COBRE
VALLEY LLC, on behalf of
themselves and all others
similarly situated; AFFILION
OF HUNTSVILLE PLLC, on
behalf of themselves and all
others similarly situated;
AFFILION OF TEXAS PLLC,
on behalf of themselves and
all others similarly situated;
TAYLOR-WILKE HOLDINGS
LLC, on behalf of themselves
and all others similarly situated; TRADITIONS EMERGENCY MEDICINE PA, on
behalf of themselves and all
others similarly situated;
TREADSTONE EQUITY

App. 85
GROUP LLC, on behalf of
themselves and all others
similarly situated; UTA
INVESTMENTS LLC, on behalf
of themselves and all others
similarly situated; BOOMERANG WB LLC, on behalf of
themselves and all others similarly situated; AZ STORAGE
1 LLC, on behalf of themselves
and all others similarly situated; AZ STORAGE 2 LLC,
on behalf of themselves and
all others similarly situated;
BOOMERANG SONORAN LLC,
on behalf of themselves and all
others similarly situated; RV
STORAGE LLC, on behalf of
themselves and all others
similarly situated; STONE
HAVEN LODGE LLC, on behalf
of themselves and all others
similarly situated; UTA HOLDINGS LLC, on behalf of themselves and all others similarly
situated; WILKE MEDICAL
DIRECTION PLLC, on behalf
of themselves and all others
similarly situated; 5T CAPITAL
FUND II LLC, on behalf of
themselves and all others similarly situated; 5T CAPITAL
HOLDINGS LLC, on behalf of
themselves and all others similarly situated; 5T CAPITAL

App. 86
LLC, on behalf of themselves
and all others similarly situated; INGENUITY AUTO
LEASING LLC, on behalf of
themselves and all others similarly situated; INGENUITY
AVIATION LLC, on behalf of
themselves and all others similarly situated; INGENUITY
EQUITY GROUP II LLC, on
behalf of themselves and all
others similarly situated; INGENUITY EQUITY GROUP
III LLC, on behalf of themselves
and all others similarly situated; INGENUITY EQUITY
GROUP LLC, on behalf of
themselves and all others
similarly situated; INGENUITY
LEASING COMPANY II LLC,
on behalf of themselves and
all others similarly situated;
INGENUITY LEASING COMPANY LLC, on behalf of themselves and all others similarly
situated; INGENUITY
MATRIX, INC., on behalf of
themselves and all others similarly situated; INGENUITY
PROFESSIONAL SERVICES
PLLC, on behalf of themselves
and all others similarly situated; BOURNE TEMPE LAND
LLC, on behalf of themselves
and all others similarly

App. 87
situated; PAUL M. MCHALE;
CYNTHIA MCHALE; KEITH E.
PEREIRA, Individually and as
a trustee of The Blaser Family
Revocable Trust Dated March
10, 2006; KIMBERLY BLASER,
Individually and as a trustee of
The Blaser Family Revocable
Trust Dated March 10, 2006;
BRIAN R. TIFFANY; RYAN P.
FRANK; KATHERINE S.
FRANK; CATION LLC;
FLORIDA CITRUS HOLDINGS LLC; MCHALE CAPITAL
MANAGEMENT LLC; PS
BAILEY LLC; BLASER
MANAGEMENT LLC; BLUE
HORIZON HOLDINGS LLC;
BUTLER MEDICAL GROUP,
INC.; DEVOTION HOMES LLC;
GLASS HOUSE LLC; MAUI
LUXURY RENTALS LLC;
SILVER MEADOW INVESTING
LLC; T&G INVESTMENTS
LLC; TREADSTONE CORE3
LLC; TW MANAGEMENT LLC;
KAMAOLE LUXURY RENTALS LLC; KANNAPALI
BEACH HOLDINGS LLC;
OUR RETIREMENT LLC;
RESILIANT LLC; NADIM
B. BIKHAZI; KAREN A.
KOSTLUK-BIKHAZI; BRADLEY
S. BULLARD; CATHLEEN M.
BULLARD; BLAKE G.

App. 88
WELLING; STEPHANIE G.
WELLING; BLAKE WELLING
MD PC; BRIAN TIFFANY MD
PC; UTAH SPINE CARE LLC;
WESTERN STATES MEDICAL
LLC; OGDEN CLINIC PROFESSIONAL CORPORATION;
BORSIGHT, INC.,
Plaintiffs-Appellants,
v.
ARTEX RISK SOLUTIONS,
INC.; TSA HOLDINGS LLC,
FKA Tribeca Strategic Advisors
LLC; TBS LLC, DBA PRS
Insurance; KARL HUISH;
JEREMY HUISH; JIM
TEHERO; ARTHUR J.
GALLAGHER & COMPANY;
DEBBIE INMAN; EPSILON
ACTUARIAL SOLUTIONS
LLC; JULIE A. EKDOM;
AMERISK CONSULTING LLC;
PROVINCIAL INSURANCE
PCC; TRIBECA STRATEGIC
ACCOUNTANTS LLC;
TRIBECA STRATEGIC
ACCOUNTANTS PLC,
Defendants-Appellees.

App. 89
Before: HAWKINS, D.M. FISHER,* and M. SMITH,
Circuit Judges.
The full court has been advised of the petition for
rehearing en banc (Mt. 50), and no judge of the court
has requested a vote on it. Fed. R. App. P. 35. Accordingly, the petition for rehearing en banc is DENIED.

* The Honorable D. Michael Fisher, United States Circuit
Judge for the U.S. Court of Appeals for the Third Circuit, sitting
by designation.

App. 90
U.S.C. Title 9 - ARBITRATION
§4

Failure to arbitrate under agreement; petition to United States court having jurisdiction for order to compel arbitration; notice
and service thereof; hearing and determination

A party aggrieved by the alleged failure, neglect,
or refusal of another to arbitrate under a written
agreement for arbitration may petition any United
States district court which, save for such agreement,
would have jurisdiction under title 28, in a civil action
or in admiralty of the subject matter of a suit arising
out of the controversy between the parties, for an order
directing that such arbitration proceed in the manner
provided for in such agreement. Five days’ notice in
writing of such application shall be served upon the
party in default. Service thereof shall be made in the
manner provided by the Federal Rules of Civil Procedure. The court shall hear the parties, and upon being
satisﬁed that the making of the agreement for arbitration or the failure to comply therewith is not in issue,
the court shall make an order directing the parties to
proceed to arbitration in accordance with the terms of
the agreement. The hearing and proceedings, under
such agreement, shall be within the district in which
the petition for an order directing such arbitration is
ﬁled. If the making of the arbitration agreement or the
failure, neglect, or refusal to perform the same be in
issue, the court shall proceed summarily to the trial
thereof. If no jury trial be demanded by the party alleged to be in default, or if the matter in dispute is

App. 91
within admiralty jurisdiction, the court shall hear and
determine such issue. Where such an issue is raised,
the party alleged to be in default may, except in cases
of admiralty, on or before the return day of the notice
of application, demand a jury trial of such issue, and
upon such demand the court shall make an order referring the issue or issues to a jury in the manner provided by the Federal Rules of Civil Procedure, or may
specially call a jury for that purpose. If the jury ﬁnd
that no agreement in writing for arbitration was made
or that there is no default in proceeding thereunder,
the proceeding shall be dismissed. If the jury ﬁnd that
an agreement for arbitration was made in writing and
that there is a default in proceeding thereunder, the
court shall make an order summarily directing the
parties to proceed with the arbitration in accordance
with the terms thereof.
(July 30, 1947, ch. 392, 61 Stat. 671; Sept. 3, 1954, ch.
1263, §19, 68 Stat. 1233.)

